<html>
<title> - THE WORLDWIDE PERSECUTION OF CHRISTIANS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                THE WORLDWIDE PERSECUTION OF CHRISTIANS

=======================================================================

                          MEETING AND HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 11, 2014

                               __________

                           Serial No. 113-175

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______

                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
86-650                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b9dec9d6f9dacccacdd1dcd5c997dad6d497">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
TOM MARINO, Pennsylvania             KAREN BASS, California
RANDY K. WEBER SR., Texas            DAVID CICILLINE, Rhode Island
STEVE STOCKMAN, Texas                AMI BERA, California
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                BRIEFER

His Excellency, the Most Reverend Francis A. Chullikatt, 
  Permanent Observer, The Holy See Mission at the United Nations.     8

                               WITNESSES

The Honorable Elliott Abrams, Commissioner, U.S. Commission on 
  International Religious Freedom................................    23
Mr. John Allen, associate editor, The Boston Globe...............    68
Ms. Tehmina Arora, attorney, Alliance Defending Freedom-India....    76
Mr. Benedict Rogers, team leader for East Asia, Christian 
  Solidarity Worldwide...........................................    88
Mr. Jorge Lee Galindo, director, Impulso 18......................    99
Khataza Gondwe, Ph.D., team leader for Africa and the Middle 
  East, Christian Solidarity Worldwide...........................   105

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE RECORD

His Excellency, the Most Reverend Francis A. Chullikatt: Prepared 
  statement......................................................    13
The Honorable Elliott Abrams: Prepared statement.................    26
Mr. John Allen: Prepared statement...............................    71
Ms. Tehmina Arora: Prepared statement............................    79
Mr. Benedict Rogers: Prepared statement..........................    91
Mr. Jorge Lee Galindo: Prepared statement........................   101
Khataza Gondwe, Ph.D.: Prepared statement........................   109

                                APPENDIX

Meeting and hearing notice.......................................   128
Meeting and hearing minutes......................................   129
Written responses from Ms. Tehmina Arora to questions submitted 
  for the record by the Honorable David Cicilline, a 
  Representative in Congress from the State of Rhode Island......   130
His Excellency, the Most Reverend Francis A. Chullikatt: Material 
  submitted for the record.......................................   131
The Honorable Elliott Abrams: Letter from Members of Congress to 
  the Honorable John Kerry, Secretary of State, U.S. State 
  Department.....................................................   136
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations: Statement for the record from Brian Grim, 
  President, Religious Freedom & Business Foundation.............   139


                THE WORLDWIDE PERSECUTION OF CHRISTIANS

                              ----------                              


                       TUESDAY, FEBRUARY 11, 2014

                       House of Representatives,

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 10 o'clock 
a.m., in room 2172 Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order and good 
afternoon to everybody. Thank you for being here for this very 
important hearing on the global persecution of Christians.
    I just would note parenthetically that I chaired my first 
hearing when I became chairman of the subcommittee that 
monitors human rights back in the mid-1990s when we recognized 
that there was an explosion of persecution, harassment, and 
discrimination against Christians occurring worldwide and so 
from since 1995 and today, almost 20 years, it has gone from 
bad to extraordinarily worse.
    So that's why we're having this hearing. I would also note 
to my colleagues that we have had many country-specific 
hearings over the years and even over the last several months 
including one on Syria, three on the Coptic Christians and some 
regional hearings.
    But this one is to look at the global reach. There is a 
dangerous and, I would suggest, a frightening phenomenon 
occurring globally in the persecution of Christians.
    Today's focus on anti-Christian persecution is not meant to 
minimize the suffering of other religious minorities who are 
imprisoned or killed for their beliefs. As the poet John Donne 
once wrote, ``Any man's death doth diminish me.''
    We stand for human dignity and respect for life from the 
womb to the tomb, and this subcommittee has and will continue 
to highlight the sufferings of religious minorities around the 
globe, be they Ahmadi Muslims in Pakistan, Baha'i in Iran, 
Buddhists in occupied Tibet, Yazidis in Iraq, or the Muslim 
Royhinga people in Burma.
    Christians, however, remain the most persecuted religious 
group in the world over and thus deserve the special attention 
that today's hearing will provide them.
    As one of today's witnesses, the distinguished journalist 
John Allen, has written, and I quote him, ``Christians today 
indisputably are the most persecuted religious body on the 
planet and too often their martyrs suffer in silence.''
    Researchers from the Pew Center have documented incidents 
of harassment of religious groups worldwide, a term defined as 
including ``physical assaults, arrests and detentions, 
desecration of holy sites and discrimination against religious 
groups in employment, education, and housing'' and it has 
concluded that Christians are the single most harassed group 
today.
    In the year 2012, Pew reports, Christians were harassed in 
110 countries around the world. This is particularly true in 
the Middle East where one of those we will hear from today, 
Archbishop Francis Chullikatt, has said, and I quote him, 
``flagrant and widespread persecutions of Christians rages even 
as we meet.''
    Archbishop Chullikatt was the Papal Nuncio to Iraq, where 
he has seen repeated violent assaults on Christians, such as 
the October 31st, 2010 assault upon Our Lady of Deliverance 
Syrian Catholic Church in Baghdad in which 58 people were 
killed and another 70 were wounded.
    Attacks such as this have led the Christian population of 
Iraq, whose roots date back to the time of the Apostles, to 
dwindle from 1.4 million in 1987 prior to the first Gulf War to 
as little as 150,000 today, according to some estimates.
    Much of this exodus has occurred during a time in which our 
country invested heavily in blood and treasure in seeking to 
help Iraqis build a democracy.
    As we witness the black flag of al-Qaeda again flying over 
cities such as Fallujah, which we had won at the cost of so 
much American blood, we wonder how it is that for Christians in 
Iraq life appears to be worse now than it was under the vicious 
dictator Saddam Hussein.
    If we turn to Egypt, we see a Christian population which 
dates back to the Apostle St. Mark also being oppressed. At a 
hearing we held on December 10th, Human Rights Day, we heard 
how churches had been subjected to mob attacks and burned.
    For example, in April 2012, St. Mark's Cathedral, seat of 
the Coptic Pope, was attacked by 30 to 40 Muslim youths. While 
dozens of Copts were sheltering inside, security forces 
joined--didn't stop--joined the mob.
    Rather than dispersing the crowd, they participated in the 
all-night attack or stood idly by as rocks, gasoline bombs and 
gas canisters were lobbed into the iconic cathedral.
    I call your attention to the photographs of churches in 
Egypt to illustrate the outrages perpetrated against Christians 
simply for being Christian. Likewise, last year this 
subcommittee held a hearing on the persecution of religious 
minorities in Syria.
    Syria had been a place of relative tolerance for religious 
minorities in the Middle East, including groups like the 
Mandeans, who trace their roots to the time of St. John the 
Baptist and whom they still revere.
    It is in this connection with the past which has helped 
bring radical Islamists to Syria, where not only do they seek 
to overthrow the violent dictator Bashar al-Assad, but also 
seek to eradicate Christianity from the land.
    I would note parenthetically that when asked our panel of 
NGO witnesses said to a group that what's happening in Iraq 
constitutes a genocide against Christians.
    Last September, members of the al-Nusra, an al-Qaeda linked 
group, attacked the town of Malula. Why this is significant is 
because Malula is a living link with the time of Christ, a 
Christian village in Syria where Aramaic, the language of 
Jesus, is still spoken.
    It is for this reason that Malula has been targeted. In the 
words of one of those attacking this small village whose way of 
life had remained largely unchanged over the centuries, the 
Mujahadeen are seeking to ``conquer''--this is their quote--
``the capital of the Crusaders.'' Such is the perspective of 
one whose vision has been distorted by hatred.
    But it is not just in the Middle East where we see the 
persecution of Christians. I would like to recall one story of 
one man that I met in September along with Greg Simpkins, our 
staff director on the subcommittee, when we were in Jos, 
Nigeria, and then in Washington when we held a hearing on the 
terror group Boko Haram last November.
    It was in the face of this man that I was able to witness 
the face of the persecuted church once again, which indeed is 
also the face of Christ. Habila Adamu is a businessman from 
Yobe State in northern Nigeria.
    On the night of November 28, 2012, masked gunmen arrived 
with AK-47s and entered his home. They told his wife to leave 
and they were there to do the ``work of Allah.'' The 
questioning began. ``Are you a policeman?'' He said, ``No.'' 
``Are you a Nigerian soldier?'' He said, ``No.'' ``Are you a 
Christian?'' He said, ``Yes.''
    Then they asked him why he has not accepted Islam, when he 
has heard the message of Muhammad. He replied, ``I am a 
Christian. We are also preaching the gospel of the true God to 
you and to other people who do not yet know God.''
    They then asked Habila, ``Are you ready to die as a 
Christian?'' He said, ``I am ready to die as a Christian.'' 
They asked him again, ``Are you ready to die as a Christian?'' 
He replied, ``I am ready,'' and before he had closed his mouth 
a bullet ripped through him.
    You can see the exit point of the wound in the photo before 
you and he sat right there at our witness table and told his 
story and you could have heard a pin drop in this hearing room 
as he related to us what he had been through.
    I thought while he was testifying how many of us, whether I 
would have the courage to stare martyrdom in the face and 
refuse to renounce Christ and he, amazingly, professed nothing 
but love and a sense of reconciliation even for those who had 
so badly mistreated him and his face is still, as you would 
expect, very badly scarred.
    Habila Adamu, by the grace of God--as I said, he did 
survive and testified--the term hero is one thrown around 
loosely these days--he is truly a hero, and there are so many 
more like him, many whose names we don't know and are known 
only to God.
    We will hear today stories from around the world where 
Christians are under attack again simply because of the beliefs 
that they profess. We will hear witnesses discuss persecution 
in places such as Burma, Vietnam, Eritrea, even in this 
hemisphere.
    According to some estimates, China is on track to become 
the largest Christian nation in the world, though numbers are 
hard to pin down because most of these Christians remain 
underground and cannot worship freely.
    As U.S. Commission on International Religious Freedom 
Commissioner Elliott Abrams points out in his testimony, 
independent Protestants and Catholics continue to face 
persecution for refusing to affiliate with government-approved 
religious groups.
    Protestant house church groups that refuse to join the 
state-approved Protestant religious organizations are deemed 
illegal and experience harassment, fines, detentions, 
imprisonment, and torture.
    Approximately 900 Protestants were detained in the past 
year for conducting public worship activities. Seven Protestant 
leaders were also imprisoned for terms exceeding a year.
    The Chinese Government issued a directive to eradicate 
unregistered Protestant churches over the next 10 years, 
including through force.
    Police have embraced the plan, raiding meetings, seeking to 
break up large churches that previously operated openly, and 
detaining religious leaders. They are on a tear.
    It has gotten worse in China. It has not gotten better. I 
would note again parenthetically Frank Wolf and I, right before 
the Olympics went to China to meet with a number of house 
church leaders.
    Every one of them were arrested, detained, roughed up and 
the one that we did meet with after the fact he too was 
persecuted, simply for meeting with two congressmen, simply for 
trying to live out their faith as they see fit.
    The Chinese Government continues to appoint bishops without 
Vatican approval and place them in leadership positions, 
setting back Vatican-Beijing relations. Dozens of Catholic 
clergy, including three bishops, remain in detention, in home 
confinement under surveillance or have disappeared.
    Bishop Thaddeus Ma Daqin, the Auxiliary Bishop of Shanghai, 
has been missing since he publicly announced his resignation 
from the state-approved Chinese Patriotic Catholic Association 
in June 2012.
    Bishop Su of Baoding, pictured right over there on the 
extreme left, I met with him the early 1990s. He had already 
spent several decades in the Laogai. He was tortured and yet 
this man had nothing but a sense of love and reconciliation 
toward his tormenters and a few months later he was rearrested.
    A few years later he was arrested and now has disappeared 
and we don't know where he is. He may even be dead at the hands 
of his captors.
    When he celebrated Mass in a dingy little apartment, there 
was nothing, not even the slightest hint of malice in Bishop 
Su's eyes or words. He prayed for his tormenters. I was 
dumbfounded by that faith. It just totally inspired me.
    In Vietnam, to name one of these countries, where churches 
are forced to register and worship outside of state-authorized 
churches is forbidden, Christian ethnic minorities such as the 
Hmong and Montagnard are allowed to exist in uneasy tension 
with the governing authorities, knowing that the heavy hand of 
the state could stop their worship at any time.
    Vietnam's Catholics, both clergy and laity, fill Vietnamese 
jails as prisoners of conscience for calling the government to 
account to a higher law than that of arbitrary dictates.
    The attack on a Catholic funeral procession in the village 
of Con Dau in 2010 resulted in more than 100 villagers being 
injured, 62 arrested, five tortured, and at least three deaths. 
This should remind one of the brutality that Christians face in 
Vietnam.
    As I mentioned Vietnam because now, in secrecy, 
negotiations are being held over the Trans-Pacific Partnership, 
to which Vietnam seeks entry, and if we focus on the utility 
and profits of increased trade without holding Vietnam to 
account for its human rights record, we miss an opportunity to 
better the lives of those who are beaten, imprisoned and even 
killed for their faith.
    I met Father Ly when he was under house arrest. Father Ly 
is now back in custody. We have a picture of him while he was 
before the magistrate, and secret police are holding his face 
and this man, this great Christian Catholic leader who wants 
nothing but democracy and religious freedom for his country, 
has been beaten and he along with so many others of different 
faiths in Vietnam continue to languish in the prisons 
throughout Vietnam.
    I would like to thank our witnesses, for most of them 
traveled here to be with us today from great distances and at 
their own expense.
    It is important to hear from voices from outside the 
beltway, and we appreciate our witnesses coming here from as 
far away as India, the United Kingdom, Mexico and from within 
the United States, from Denver and from New York.
    And lest we appear ungrateful, thanks to the incomparable 
U.S. Commission on International Religious Freedom and 
especially its commissioner here today, Elliott Abrams, who I 
and members of this committee have known for over three 
decades.
    He once walked point as Assistant Secretary for Human 
Rights in the Reagan administration. I thank him for his 
extraordinary leadership over these many years.
    And one brief word about protocol and procedure--we will 
first hear from Archbishop Francis Chullikatt, the 
representative of the Holy See to the United Nations.
    As Archbishop Chullikatt holds the equivalent of the rank 
of Ambassador, he will not be testifying in the pure sense of 
that word but rather briefing Congress this morning pursuant to 
our House rules and we will then go to our other witnesses when 
we reconvene as a hearing.
    And I would like to say Frank Wolf is here and the USCIRF 
was created by the legislation that he wrote back in 1998--
landmark legislation called the International Religious Freedom 
Act.
    I want to thank him for his extraordinary leadership over 
these many years and, again, Elliott Abrams is now here as part 
of that commission and I thank him again for his leadership.
    I'd like to yield to Chairman Rohrabacher for any comments 
he might have.
    Mr. Rohrabacher. Thank you very much, and I would like to 
thank the chairman for the time and effort that he puts in to 
try to save the lives of suffering people throughout the world.
    We have the opportunity here in America to make a 
difference with our outrage but we have to express that outrage 
and we have to make sure that our voices are loud, are clear, 
and specific in order to save those oppressed people who are 
perhaps the closest to saints that we have today in that people 
are suffering for their own religious convictions.
    I think America is a little bit hesitant about being as 
aggressive as we should be and I think that's because in a 
world that's filled with suffering that we, and we are a 
country that is a vast majority of our people consider 
themselves Christians, that we are self-conscious in thinking 
that if we speak up with a loud voice about the persecution of 
Christians that this will appear self-serving to our own 
political ends.
    The fact is that Christians are being slaughtered today and 
we are in an era when that slaughter is being ignored. We today 
are calling upon our fellow Members of Congress but also on the 
American people to step forward with a loud voice and stand by 
our fellow Christians but also people of other faiths but today 
we're focusing on Christians--to stand beside those who are 
suffering for their religious convictions.
    We need every community who has religious convictions to 
stand together when any community, whether it's Christians or 
Jews or Muslims or Buddhists, we need to stand together in 
unity to send a message because this truly is the issue of 
righteousness versus evil and we as believers must stand 
together if evil is to be defeated.
    So we went through communism where ideologically we had a 
group--a large group, millions of people who felt that it was 
their job to displace the belief in God, period, with an 
atheist dictatorship because that would restructure the world.
    Well, that was an evil that we face and I'm so happy to 
have stood with many of you and with Elliott and others to help 
defeat that force when it was an expanding force in the world.
    Well, now we face another evil and that is where people who 
are fanatics in their own faith are committing horrible acts 
against people of other beliefs and especially today we focus 
on Christians.
    So today we call on all of the good people of the world to 
join us, speak loudly and aggressively against this evil so 
that too can be defeated and fall into, as Ronald Reagan said, 
the ash heap of history.
    And hopefully our children will see a world in which they 
say, you mean people who believed in God in a different way 
killed each other back then.
    We can create that kind of world but we have to commit 
ourselves to it and I'm so grateful--I'm so grateful, Mr. 
Chairman, to your leadership and Frank Wolf and others who have 
spent so much time and effort in their political life to try to 
make this difference in the world.
    Thank you very much.
    Mr. Smith. Chairman Rohrabacher, thank you very much.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman, for holding this 
hearing and thank each of you, some of my friends who are here 
with us today, and I'll be very brief.
    It is important that we emphasize this particular story 
because so many times it does not get reported. Atrocities 
happen across our world and, quite frankly, they go as a very 
small headline on a back page of some newspaper somewhere, and 
for us to highlight that is a critical component.
    The priority that it should be for not only this Congress 
but for the American people is a story that is steeped in 
freedom and really economic prosperity because when you look at 
it, when you have freedom you truly have the economic 
prosperity that goes with that. And so as a priority, I mean, 
many of us have a number of other conflicting things.
    I know I have four hearings today and I've chosen to be 
here because this is a critical time and where we can make a 
difference.
    So I look forward to hearing your testimony and your 
briefing and I thank you so much, and I'll yield back, Mr. 
Chairman.
    Mr. Smith. Thank you so very much.
    I'd like to yield to Joe Pitts, the chairman of the Health 
Committee on Energy and Commerce.
    Mr. Pitts. Thank you, Mr. Chairman.
    Although I'm not on this committee, thank you for asking us 
to attend and thank you for holding this very important and 
timely hearing.
    It is disheartening, to say the least, that this committee 
needs to hold a hearing bearing the title ``The Worldwide 
Persecution of Christians.'' I've sat on numerous hearings over 
the last few years focusing on the persecution of specific 
religious minorities.
    But it is evident that there is a global systematic 
persecution of those around the world that profess the 
Christian faith and this persecution reaches every region of 
the world.
    It's not deterred by any political structure or strength of 
the state. Whether Christians find themselves in a country with 
an authoritarian government or a theistic state or even a 
popular democracy, Christian minorities are vulnerable to and 
have been encountering denial of rights by government regimes. 
They've been encountering communal violence, even specific 
targetings that result in ransom and terrorism and even murder.
    In cases where Christians are facing government 
restrictions or abuse by the state, our Government holds an 
obvious venue for addressing these issues through our dialogue 
with those states. Specifically, states in recent years have 
increased the enforcement and/or the adopted laws that deter 
conversion or to deem certain expression of faith as blasphemy.
    Whether it be Kazakhstan, its 2011 laws restricting 
religious activity, or Pakistan's anti-blasphemy laws, or the 
anti-conversion laws in many states in India including the 
populous state of Gujarat, our Government can and must speak 
out and elevate policies that address these issues.
    Late last year, Keith Ellison and I introduced a resolution 
calling for the repeal of the anti-conversion laws in India and 
it calls for religious freedom and related human rights to be 
included in the United States and India's strategic dialogue.
    It's my belief that we need a corresponding escalation of 
policies with all of our allies and within all of our strategic 
relationships in order to combat this worldwide and systemic 
persecution.
    So I look forward to hearing the recommendations of our 
witnesses and thank them for their participation today, and 
thank you, Mr. Chairman, for allowing us to sit in.
    Mr. Smith. Thank you very much, Chairman Pitts, and I would 
also note that Chairman Pitts has been a leader on assisting 
Christians in Burma.
    Other places as well, but Burma he has had a special heart 
for those suffering the Karen and others. So I thank him for 
that leadership which he has helped--we have all gotten behind 
him on those efforts.
    Pursuant to the House rules, in order to receive a briefing 
from a diplomat deployed with the United Nations the hearing 
stands in brief recess subject to the call of the chair, and 
then we will go back to the hearing setting. So Archbishop 
Chullikatt, if you could come and present your remarks.
    Archbishop Francis Chullikatt is from the Holy See Mission 
to the United Nations. He was appointed by Pope Benedict XVI to 
be Permanent Observer of the Holy See to the United Nations in 
New York in July 2010.
    He previously served the Holy See as Apostolic Nuncio to 
Iraq and Jordan where he served from 2006 until 2010. 
Previously, he served as a priest and as the secretary to an 
archbishop in his native India.
    He has also served as a diplomat in Honduras, southern 
Africa, and in the Philippines.
    Archbishop Chullikatt, the floor is yours.

   STATEMENT OF HIS EXCELLENCY, THE MOST REVEREND FRANCIS A. 
  CHULLIKATT, PERMANENT OBSERVER, THE HOLY SEE MISSION AT THE 
                         UNITED NATIONS

    Archbishop Chullikatt. Thank you, Mr. Chairman, Congressman 
Smith. I wish to also to recognize other members of this 
subcommittee, Mr. Rohrabacher, Mr. Wolf, and Mr. Pitts and I 
wish also to recognize Mr. Elliott Abrams for his presence here 
and to all other members who are invisibly present on this 
panel and all of our audience.
    I am so happy to be here and so thankful for giving me this 
opportunity to come and brief all of you about the topic that 
we are discussing at the hearing.
    It is such a vital issue that we have to consider very 
seriously. As I say, when these things or these symptoms start 
manifesting we have to nip it in the bud.
    Otherwise, it will start as a sign of intolerance and later 
on it will move to the stage of discrimination and thereafter 
will definitely come about that final stage of persecution, 
which we are going to talk about.
    So thank you for this opportunity once again to address you 
and the committee today. Your recognition of the consequential 
need to consider and respond effectively to existing and 
emerging threats to religious freedom in the world today is 
indeed commendable.
    Such threats manifest not solely under authoritarian 
regimes or in traditional societies but even, I regret to say, 
in the great democracies in the world.
    The Constitution of the United States apprehends well what 
the Holy See consistently affirms, namely, that religious 
freedom is also the first freedom, a fundamental human right 
from which other rights necessarily flow and which must always 
be protected, defended, and promoted.
    Pope Benedict XVI identified religious freedom as, and I 
quote,

          ``The pinnacle of all other freedoms. It is a sacred 
        and inalienable right. In includes, on the individual 
        and collective levels, the freedom to follow one's 
        conscience in religious matters and, at the same time, 
        freedom of worship.
          ``It includes the freedom to choose the religion 
        which one judges to be true and to manifest one's 
        beliefs in public. It must be possible to profess and 
        freely manifest one's religion and its symbols without 
        endangering one's life and personal freedom. Religious 
        freedom is rooted in the dignity of the person. It 
        safeguards moral freedom and fosters mutual respect.''

    Every government bears the profound responsibility to 
guarantee in its constitution, as your First Amendment and the 
entire text secure, religious freedom for its people and must 
moreover uphold the religious liberty both in principle and in 
fact.
    Today, however, religious persecution, be it overt or 
discreet, is emerging with an increased frequency worldwide. 
Even in some of the Western democracies, the longstanding 
paragons of human rights and freedoms, we find instances of 
increasingly less subtle signs of persecution including the 
legal prohibition of the display of Christian symbols and 
imagery, legitimate expressions of beliefs that for centuries 
has enriched culture, be they on the person or on public 
property.
    This suggests a profound identity crisis at the heart of 
these great democracies which owe to their encounter with 
Christianity both their origin and culture, including their 
human rights culture.
    I personally have witnessed many egregious threats to 
religious liberty during my service around the globe, 
especially in Iraq and in Jordan where I served for 4 years as 
Apostolic Nuncio of the Holy See.
    My current posting also makes me familiar with the work of 
the United Nations which your great nation has helped establish 
when the world society was desperate for an institution whose 
mission would be to secure and maintain the international peace 
and security.
    The founding charter of the United Nations mandates that it 
will fill this mission through safeguarding the fundamental and 
inalienable rights and responsibilities of each member of the 
human family. The preservation of authentic religious freedom 
thus stands at the heart of the U.N.'s solemn responsibility.
    Having said this, allow me to address the following two 
points in my brief remarks. I will also be submitting to the 
committee two more detailed texts for your further 
consideration.
    The first issue on which I wish to focus today concerns 
challenges to religious freedom in the Middle East, 
particularly for Christians who, since the beginning of 
Christianity 2000 years ago, have been continuous inhabitants 
of that important region of the world.
    A second issue I will touch upon briefly concerns the 
responsibility of the United Nations toward safeguarding this 
religious freedom.
    I also wish to highlight the crucial role the United States 
of America bears in the work of the U.N. by virtue of its 
significant influence with this organization as well as its 
permanent membership in the Security Council.
    Regarding my first point, flagrant and widespread 
persecution of Christians rages in the Middle East even as we 
meet. No Christian is exempt whether or not he or she is Arab.
    Arab Christians, a small but significant community, find 
themselves the target of constant harassment for no reason 
other than their religious faith. This tragedy is all the more 
egregious when one pauses to consider that these men and women 
of faith are loyal sons and daughters of the countries in which 
they are full citizens and in which they have been living at 
peace with their neighbors and fellow citizens for untold 
generations.
    One of the most graphic illustrations of ongoing brutality 
confronting Arab Christians is the emergence of a so-called 
``tradition,'' of bombings, of Catholic and other Christian 
houses of worship every Christmas Eve, which has been going on 
now for the past several years.
    Will there be no end in sight for this senseless slaughter 
for those who on that very night proclaim the birth of the 
Prince of Peace in some of the oldest Christian communities in 
the world?
    As is increasingly obvious, governments are by no means 
guaranteeing religious freedom consistently among fundamental 
human rights and, at worst, violations take the form of the 
outright persecution of religious believers by state actors.
    For its part, the Holy See regularly urges the world's 
attention to serious violations, of the right to religious 
freedom in general as well as to recent and continuing 
instances of discrimination or systematic attacks on Christian 
communities in particular.
    In a recent statement to the United Nations Human Rights 
Council, the Permanent Observer of the Holy See to the United 
Nations in Geneva said the following, and I quote,

          ``Research has indicated that more than 100,000 
        Christians are violently killed because of some 
        relation to their faith every year.
          ``While other Christians and believers are subjected 
        to forced displacement, to the destruction of their 
        places of worship, to rape and to the objection of 
        their leaders, several of these acts have been 
        perpetrated in parts of the Middle East, Africa, and 
        Asia and are the result of bigotry, intolerance, 
        terrorism and some exclusionary laws.
          ``In addition, in some Western countries where 
        historically the Christian presence has been an 
        integral part of the society, a trend emerges that 
        tends to marginalize Christianity in public life, 
        ignore historic and social contributions and even 
        restrict the ability of faith communities to carry out 
        social charitable services.''

    Pope Francis himself, in praying recently for all 
Christians who experience discrimination on the basis of their 
belief, stated, and I quote,

          ``Let us remain close to these brothers and sisters 
        who, like the first martyr of the church, St. Stephen, 
        are unjustly accused and made the objects of various 
        kinds of violence.
          ``Unfortunately, I am sure they are more numerous 
        today than in the early days of the church. There are 
        so many. This occurs especially where religious freedom 
        is still not guaranteed or fully realized.
          ``However, it also happens in countries and areas 
        where on paper freedom and human rights are protected 
        but where in fact believers and especially Christians 
        face restrictions and discrimination.''

    His predecessor, Pope Benedict XVI, similarly pointed out 
the same problem in his 2012 address to the members of the 
diplomatic corps accredited to the Holy See. At that time, he 
stressed the following.
    I am quoting here his words,

          ``In many countries, Christians are deprived of 
        fundamental rights and sidelined from public life. In 
        other countries, they endure violent attacks against 
        their churches and their homes.
          ``At times, they are forced to leave the countries 
        they have helped to build because of persistent 
        tensions and policies which frequently relegate them to 
        being second class spectators of national life and in 
        other parts of the world we see policies in that 
        marginalizing the role of religion in the life of 
        society.
          ``It even happens that believers and Christians in 
        particular are prevented from contributing to the 
        common good by their educational and charitable 
        institutions.''

    Mr. Chairman, this past autumn in a message to the 
ecumenical patriarch of Constantinople, Bartholomew I, Pope 
Francis called to mind the 1,700th anniversary of the Edict of 
Milan which brought about the end to the persecution of 
Christians in the Roman Empire and drew attention to the many 
Christians of all the churches and ecclesiastical communities 
who in many parts of the world experience discrimination and at 
times pay with their own blood the price of their profession of 
faith.
    The Pope also stressed the urgent need for effective and 
committed cooperation among Christians in order to safeguard 
everywhere the right to express publicly one's faith and to be 
treated fairly when promoting the contribution which 
Christianity continues to offer to contemporary society and 
culture.
    Current circumstances make it particularly important that 
Christians work together to ensure religious freedom for all 
and to this end it is crucial that every government guarantee 
religious freedom for each and every person in its country, not 
only in its legislation, but also in practice.
    Strictly connected to religious freedom is respect for 
conscientious objection of which everyone should be able to 
avail himself or herself. Conscientious objection is based on 
religious, ethical, and moral reasons and under universal 
demands of human dignity.
    As such, it is a pillar of every truly democratic society 
and precisely for this reason civil law must always and 
everywhere recognize and protect it. After all, these steps 
ensure not only human dignity but the dignity of democratic 
institutions.
    Regarding my second point, which concerns the United 
Nations, the essential importance of religious freedom for each 
and every person, community and society is confirmed by the 
foundational international legal instruments and other 
documents.
    The Universal Declaration of Human Rights states the 
following. Everyone has the right to freedom of thought, 
conscience and religion.
    This right includes freedom to change his religion or 
belief and freedom either alone or in community with others and 
in public or private to manifest his religion or belief in 
teaching, practice, worship, and observance. This is from 
Article 18 of the Universal Declaration of Human Rights.
    Since the summer of 2010, Mr. Chairman, as the Holy See's 
representative to the United Nations, I have labored alongside 
many people of good will to bring an end to the suffering in 
the world. The religious persecution of Christians throughout 
the Middle East looms large in this theater of suffering.
    The United Nations General Assembly addresses the question 
in certain resolutions which we have a hand in negotiating. 
However, these noble efforts fail to receive the profile they 
justly deserve on the world stage.
    Only member states especially with leadership profiles like 
the United States can take decisive steps to ensure that the 
non-derogatable human right of religious liberty becomes more 
robustly protected worldwide. The self-evident truths 
underlying healthy democracy, truth upon which both President 
Jefferson and the church agree require as much.
    The religious freedom which the law is expected to protect 
and promote abides no mere passive toleration but requires 
rather that states guarantee the basic preconditions that 
permit its free exercise by citizens in both their private and 
public endeavors.
    Allow me now to express my gratitude for efforts this 
committee undertakes in promoting religious liberty and those 
it will undertake in this issue to bring an end to further 
suffering and social exclusion of Christians.
    As I mentioned, I also leave for your consideration two 
documents of crucial concern to my briefing today--the 
Lineamenta or Guidelines for the 2009 Synod of Bishops Special 
Assembly for the Middle East, which I had a strong role in 
promoting when I was Nuncio to Iraq and Jordan, and the second 
document is Pope Benedict XVI's 2011 World Day of Peace message 
entitled ``Religious Freedom: The Path to Peace.''
    In conclusion, Mr. Chairman, I express my gratitude to you 
and to this subcommittee for this important opportunity to 
express solidarity with all Christian believers in the harsh 
reality of the persecution of their communities and adherents 
at this present time, and we look to your country to stand true 
to its own Constitution and to show its leadership in every 
forum in working to end the erosion of this most fundamental of 
human rights.
    I thank you for the attention.
    [The prepared statement of Archbishop Chullikatt follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Archbishop Chullikatt, thank you for your very 
eloquent statement, for your never-ending, indomitable effort 
on behalf of beleaguered Christians and people of all faiths 
throughout the world, particularly in your posting at the 
United Nations.
    I know some of the members would just like to make a very 
brief statement. I'll make a very brief question statement.
    As agonizing as it is for adults to endure and mentally 
process the discrimination that comes in many parts of the 
world for being a Christian, I've often wondered, and you lived 
it in Iraq, how the most vulnerable among us, especially 
children, cope with being attacked, taunted, having their 
parents beaten, maybe even killed, maybe even brothers and 
sisters, and maybe themselves simply because they are 
Christians. How does a young person deal with this?
    Archbishop Chullikatt. Thank you for raising that question 
because this is one of the heartbreaking stories that I had 
witnessed on a daily basis when I was in Iraq, especially as 
you are mentioning and highlighting with so much of passion 
that you have always demonstrated, Mr. Chairman, for the 
suffering of these people around the world, especially those 
countries in which the Christians, because of their faith, they 
are undergoing these kind of discrimination, intolerance and 
persecution.
    And when I look at those children, those innocent victims 
of this kind of persecution where they have to live in fear 
just because they happen to be Christians, they have not 
committed any crime.
    They are children, and even if they were to follow these 
kind of atrocious and horrible stories on a daily basis on the 
TV screen, which I'm sure that will be affecting 
psychologically these children, and when they go to the schools 
when they are not even sure where they'll come back safe and 
sound or alive after the school and sometimes when they see in 
front of their own eyes when the car bombs explode and the 
human bodies are torn apart and these kind of horrible scenes, 
don't you think that will leave a lasting scar in their memory, 
in their mind and in their life?
    And here we are talking about a new generation of Iraqi 
society that has to be built up and is this kind of a society, 
a generation that we want to build up and whom are we going to 
blame later on if some of these children were to end up within 
the terrorist groups. These are the kind of crimes that they 
are witnessing on a daily basis and now you need only to turn 
on the TV screen you can see that on a daily basis car bombs 
are going off in Iraq and do you think that people don't see 
it?
    Do you think that the children don't see these kind of 
atrocious acts that are taking place? And is this the kind of 
formation that we are giving to the young generations that have 
to become the future leaders of the country?
    So it is really a painful thing. It is not only the 
terrorist acts that are being committed but the impact it will 
have on the incoming generation that you have, that has to be 
borne in mind.
    So that is where some of the painful feelings that I always 
used to have and I was seeing this kind of horrible things and 
these bloody attacks that continuously are being repeated 
within the Iraqi society.
    And I hope that the government will take all the necessary 
measures so that peace and security can be brought to that land 
because that is the most essential thing at this point in time 
that Iraq society wants, and thank you for that question.
    Mr. Smith. Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you for the overview that you've 
given us today.
    I'd just like to ask something that's been perplexing for 
me on this issue and that is when you look at the Middle East 
it's my understanding and why I'm asking this is if it's 
incorrect I'd like you to correct this misperception that I 
have, that under Saddam Hussein Christians actually were more 
protected than now that you have a more democratic government 
and I understand that that may be true with Assad as well in 
Syria.
    Maybe you could give me a little insight into that and 
should that mean that--what does that mean by how we should 
approach this problem?
    Archbishop Chullikatt. With regard to the security that 
prevailed during those regimes, what happened was because of 
the policy of the government, of the regime at that time, there 
was security not only for the minorities but all over the 
country because under a dictatorship, of course, you know, 
there is law and order both in place but oftentimes it is what 
it is.
    So not only the minorities but throughout the country, you 
know, you could also take a walk during midnight and nothing 
will happen to you because there was law and order which was 
forcibly imposed on the situation of the country.
    So, of course, the minorities benefited from that. But it 
was not just for the minority but this is all over the country. 
So anybody who dared to question the regime, of course, we know 
what happened.
    So it is under that threat of the consequences that anybody 
would go to undergo during those--the time of those regimes 
that the so-called security and peace prevailed in those 
societies.
    And, of course, the minorities felt protected because they 
were participants under the benefit that came about from this 
strict law and order that were imposed by those regimes.
    I think that was one of the reasons, although sometimes it 
is being interpreted that it was a special protection that was 
offered to the minorities, and the minorities, of course, 
because of the situation that prevailed, they could exercise 
all their rights and they were free, the freedom of worship 
especially, as it happens in Jordan, for example, as it 
happened in Syria.
    Now, in Syria what we see is practically a replay of what 
happened in Iraq and you can already see now what is happening 
in Syria is having its own spillover effect both in Iraq and we 
have seen what happened recently in Fallujah and the same thing 
also in Lebanon.
    So during the time of the intervention in Iraq the 
spillover effect was in Jordan and Syria, also Lebanon and 
Turkey, the same thing is being seen also at this time, 
unfortunately, for what is happening in Syria where also the 
minorities now, especially the Christians, are also starting to 
leave the country.
    And there's one of the--this is called the silent exodus of 
Christians from Syria. So it is so sad to see the same thing is 
being repeated over and over again and I hope this will be the 
last time that we are seeing such this conflict that is taking 
place in those countries and because of this conflict the 
Christians are caught in the crossfire and they are becoming 
the most vulnerable group that is paying the highest price. 
Thank you.
    Mr. Rohrabacher. Thank you very much for that answer. That 
is really helping me to have a understanding of that perplexing 
analysis, so thank you very much for clearing that up.
    Mr. Smith. Thank you. Mr. Meadows.
    Mr. Meadows. Thank you. It's good to see you again. When we 
met the last time one of the things that struck me was your 
heart for people of all faiths. There was not a political 
agenda there.
    One of the things that we struggle with in raising the 
persecution of Christians or of Jews is that it sometimes gets 
put in political perspective of trying to take a government and 
putting a government out of control and that's most often is 
not the agenda.
    So how would we--how would we show heart for the people 
without a government entity looking at it as an overt threat to 
their national sovereignty where we're really looking at at 
protecting those that are being persecuted? What advice would 
you give us on that?
    Archbishop Chullikatt. This issue has been brought up also 
during many sessions of the Security Council. We take all the 
regime change that oftentimes seems to be the scope of some of 
the interventions.
    But as it is happening now, yesterday started the Geneva 2 
conference that has been resumed in Geneva. We have so much of 
the other possibilities to bring the government accountable for 
what is happening in there, especially when they are violating 
the fundamental human rights, and that is why the Holy See has 
always promoted and supported the diplomatic channel that has 
to be exhausted first and foremost.
    And I'm so happy to see that in the case of Syria that is 
what is taking place now, although it is a little late but it 
is better late than never. The Geneva 2 conference is the right 
process to follow where all sectors of the society join in in 
deciding the future of that nation because after all we are not 
going to live in Syria.
    The Syrians are going to live in Syria and they have to 
take ownership of their country and their future, and they are 
the one to shape how to run their country and the international 
community is there to support and facilitate this process.
    And this is the process that the Holy See has been always 
promoting and myself as the representative of the Holy See I 
will also join in wholeheartedly in moving forward this 
process. It's not only in Syria.
    Wherever it happens we should make the people of that 
nation take the ownership of the destiny of that nation and 
then we bring in our support and facilitate that process and to 
hold the governments when they are violators of the fundamental 
human rights and the democratic principles accountable and we 
have in the national court of justice, in fact, in the criminal 
court and we have all the mechanisms set in place and why don't 
we make use of that?
    So immediate military intervention is not the solution and 
we know what happened in those instances that we decided for 
the military intervention. Without having a precise exit 
strategy, it is very easy to go in and start the conflict and 
afterwards oftentimes we don't know how to get out of it.
    So without any exit strategy we should not go in into any 
nation and start a policy or project that would not bring us a 
satisfactory solution. Thank you.
    Mr. Meadows. Thank you. I yield back.
    Mr. Smith. Chairman Wolf.
    Mr. Wolf. Thank you.
    I have a very quick question. Thank you for your testimony. 
I found it very, very helpful.
    Out in the region I've heard people use the expression, 
``First the Saturday people and then the Sunday people,'' 
meaning that they eliminate the Jewish population, then they 
eliminate the Christian population.
    I was also told that in Iraq, and you may have the numbers 
differently, that in 1950 the Jewish population was roughly 
150,000. I was told that it may now be down to maybe four or 
five individuals. Is that accurate? If you could help me.
    But what was the Christian population in Iraq, say, in the 
year 2000 and what is the Christian population in Iraq now? 
Thank you.
    Archbishop Chullikatt. There has not been any official 
census that was being done in Iraq about even the population at 
large. So it is still being disputed, the different figures 
that we see in the news reports and from the church authorities 
there.
    Yesterday, I was reading one of the statements by the 
Chaldean patriarch, Louis Raphael Sako, who mentioned that in 
Iraq at this point in time there are \1/2\ million Christians.
    So this is the number that he gave. In fact, that seems to 
correspond to the representation of Christians in the 
Parliament. There are five representatives of the Christian 
community in the Parliament, which is based on the 100,000 
Christians would represent one parliamentary representatives so 
they have five.
    So I think that number goes together with the quota system 
that has been introduced in the Iraqi Parliament. But my guess 
is that it should be between 300,000 and 350,000 Christians 
because of the ongoing exodus of Christians from Iraq. And you 
know that if you go to Detroit or California you can see the 
number of Iraqis that have settled in the United States and the 
same thing also, you know.
    Regarding the Jewish exodus, I think they were also, 
because they were a minority there, they had to go through the 
same fate, you know, because once the fight between the Sunnis 
and Shi'as started the minorities were the targets also.
    The Christians, for example, in a place in Baghdad called 
Dura it used to be practically a Christian town there but now 
there is nobody left over there--there are only a few families 
there.
    Because of the threat of security that they have, the 
insecurity that they are experiencing they all moved out to the 
northern part of Iraq. In the case of Jews, the same thing or 
the Mandeans or the Shabaks or the Turkmens they are all 
victims of this sectarian violence that is going on in Iraq.
    So nobody has been exempt from it including the Jews. The 
only people who are now protecting themselves in a stable 
manner are the Kurdish people because they have a semi-
autonomous region in the northern part of Iraq where they can 
exercise quasi-independence.
    So all of the minorities they are being targeted and they 
are the victims of the sectarian violence that is happening in 
Iraq.
    Mr. Smith. Thank you. Chairman Pitts.
    Mr. Pitts. Thank you, Archbishop, for your testimony.
    We're all familiar with the Soviet model of imposing 
registration of churches that some of the emerging republics 
have adopted like Kazakhstan that has resulted in a crackdown 
on minority Christian groups.
    We're familiar with the anti-blasphemy laws like in 
Pakistan that has resulted in the strong in society taking 
advantage of the weak with false charges on blasphemy.
    I'm interested in your view of the anti-conversion laws in 
some of the states in India and the impact on minorities. Could 
you elaborate on that, please?
    Archbishop Chullikatt. Thank you for asking that, 
especially because I am from India originally. So we are really 
worried about this anti-conversion law because India is 
expected to be one of the great democracies in the world and 
India has thrived so far so well it is because of that multi-
religious and multicultural democratic system that you have put 
in place.
    But as we know, there will always be some radical elements 
within the Indian society and this is the re-emergence and 
emergence of the radical groups in India that are making such a 
lot of noise around the world. And unfortunately, there are 
some political parties in India who are indirectly supporting 
these radical groups.
    And so they feel emboldened because of this indirect 
support that they get from certain political parties within the 
Indian political system and they take that kind of liberty in 
going after the minorities, especially the Christians, and you 
mentioned about Orissa is one of those states where this anti-
conversion will is put in place which is important because if 
the religious freedom is being respected this is totally 
against and there's no way you can--you can justify such a law.
    How could you possibly imagine that in order to convert to 
other religion or to renounce your own religion you need a 
piece of paper from the state government? This is absurd and 
the bishops in India have been complaining about it.
    They have presented to the national government. They have 
protested. They expressed many times but it seems that because 
of these certain parties, political parties, who are supporting 
these radical groups within the society they have a free hand 
in exercising these kind of discriminatory actions against the 
minorities--religious minorities, especially the Christians.
    And I think the United States can do a lot in putting 
pressure on the Indian Government to put in place the laws they 
would respect. The laws are already there. It's only a matter 
of implementing that law at the state level so that these 
minorities are protected also in India because once the 
sectarian violence starts in India that will bring in 
eventually the fragmentation of the Indian society.
    We don't want that to happen. So we are still early to do 
that kind of legal system to be put in place so that India can 
truly and really enjoy the fruits of the true democracy and to 
show to the world that it can really show to the world that 
India is indeed a democratic country where everybody enjoys his 
or her rights to the fullest manner and the Indian Government 
will be there to protect, especially the minorities in the 
country.
    Thank you.
    Mr. Pitts. Thank you, Mr. Chair.
    Mr. Smith. Thank you very much, Mr. Pitts.
    Thank you very much, Archbishop Chullikatt. We deeply 
appreciate your testimony and your leadership.
    This official briefing is now concluded. We will now 
reconvene a hearing of the subcommittee.
    I'd like to now welcome to the witness table our first 
panel of the official hearing, beginning with Mr. Elliott 
Abrams, who is a senior fellow from Middle Eastern Studies at 
the Council of Foreign Relations in Washington. He served as 
Deputy Assistant to the President and Deputy National Security 
Advisor in the administration of George Bush where he 
supervised U.S. policy in the Middle East for the White House.
    Mr. Abrams was educated at Harvard College, the London 
School of Economics and Harvard Law School. After serving on 
the staffs of Senators Jackson and Moynihan, he was an 
Assistant Secretary of State in the Reagan administration and 
received the Secretary of State's distinguished service award 
from Secretary George P. Schultz.
    Mr. Abrams was president of the Ethics and Public Policy 
Center in Washington from 1996 until joining the White House 
staff. He was a member of the U.S. Commission on International 
Religious Freedom, in 1999 to 2001 and chairman of the 
commission in the latter year, and is serving an additional 
term as member now 2012 to 2014.
    Mr. Abrams is also a member of the U.S. Holocaust Memorial 
Council which directs the activities of the U.S. Holocaust 
Memorial Museum and a member of the board of the National 
Endowment for Democracy.
    He teaches U.S. foreign policy at Georgetown University's 
School of Foreign Service.
    Secretary Abrams.

 STATEMENT OF THE HONORABLE ELLIOTT ABRAMS, COMMISSIONER, U.S. 
         COMMISSION ON INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Abrams. Thank you, Mr. Chairman, and members of the 
subcommittee.
    Thanks for inviting me to testify on behalf of the 
commission and for holding the hearing. The persecution of 
Christians is a growing and searing affront to our consciences 
and beliefs.
    For Christians struggling worldwide for the freedom to 
practice their faith, you're demonstrating concern and 
solidarity here that I think will lift their spirits and, we 
hope, put their governments on notice that you care about this 
issue and will continue to shine a spotlight on their misdeeds.
    Because of these efforts, yours and others, people know 
about persecution of people like Pastor Saeed Abedini--I'll 
just hold up his picture--in Iran, Asia Bibi in Pakistan, a 
young Catholic woman, and Father Ly, who's been mentioned, in 
Vietnam.
    Their persecution reflects a disturbing reality for many 
Christians around the world. There are about 2 billion 
Christians worldwide, and in many of those countries, 
persecution is widespread partly because in many of the 
countries in which they reside, they're members of small 
minorities--ethnic minorities, language minorities or they're 
viewed as linked to the West, to the United States, and to 
Europe. Of course, in many cases, Christianity represents an 
alternative source of authority, and for tyrannical governments 
and extremist nonstate actors, this is viewed as a threat to 
their own power.
    So Christians and other religious minorities find 
themselves in the crosshairs often of authoritarian or 
totalitarian regimes on the one hand, and theocracies on the 
other.
    Both of these kinds of dictatorships violate the religious 
freedom of Christians and others because they seek to exclude 
or limit these dissenters' ability to communicate with each 
other, practice their faith and, of course, they resent 
Christians' loyalty to their faith.
    In the case of terrorist groups and other nonstate actors, 
the problem is the presence of these private individuals or 
groups who commit violence against Christians and very often 
governments tolerate these actions and later fail to bring the 
perpetrators to justice.
    In my written testimony, I talk about 18 countries and 
governments which are among the world's worst violators and I 
talk about some of the individuals who've been imprisoned in 
many of these countries for their Christian faith.
    These names come from the Defending Freedom Project of the 
Tom Lantos Human Rights Commission. You have to mention these 
names.
    We have to shine a light on them and others until they are 
free, and raise the issue of religious freedom until the 
countries that imprisoned those prisoners of conscience comply 
with the international legal documents and treaties that they 
have signed and protect this fundamental human right.
    Let me just say a word about Egypt and Vietnam. In Egypt, 
there has been a good deal of sectarian violence against the 
Copts for years and especially during the Muslim Brotherhood 
government period of President Morsi.
    Conservative clerics and extremists often use incendiary 
sectarian rhetoric and incitement without any accountability, 
and unfortunately, the post-Morsi era has gotten off to a 
similarly bad start.
    Violent religious extremists and thugs in August launched 
attacks against churches throughout the country, as the 
archbishop mentioned. At least seven Copts were killed and more 
than 200 churches and other Christian religious structures, 
homes, businesses assaulted.
    Just last October, four Copts were killed including two 
sisters aged 8 and 12, when gunmen on motorcycles opened fire 
at a wedding party outside a church near Cairo.
    While the government, before, during, and after the Morsi 
period, has failed to bring to justice the perpetrators of 
these sectarian attacks, the courts have continued to convict 
and imprison Egyptians charged with blasphemy, with a 
disproportionate number, of course, being Christian.
    There's been some renewed hope among Christians in Egypt in 
the Christian community following the ouster of President Morsi 
and some changes to the new constitution that potentially could 
mean more religious freedom for Copts. However, their situation 
and their future today are precarious.
    In Vietnam, religious conditions are poor. The Vietnamese 
Government imprisons individuals for religious activity or 
religious freedom advocacy and seeks to stop the growth of 
ethnic minority Protestantism and Catholicism.
    Ethnic minority Protestants and Catholics, particular in 
the Central Highlands, have been arrested, beaten, and face 
forced renunciations of their faith for practising outside the 
approved government religious organizations.
    Hmong and Montagnard Protestants continue to experience 
government sanctioned efforts to force their renunciations of 
faith. The government has sanctioned violence against and 
arrested Catholics for peacefully advocating for religious 
freedom.
    Let me just mention again Father Ly, who's been in prison 
on and off for the crime of advocating religious freedom in 
Vietnam. He has spent more than 20 years in prison and was last 
returned to prison after a March 2007 show trial in which, as 
that pictures shows, he was muzzled. One other thing I would 
mention just at the end, which is that in the act, the 
International Religious Freedom Act of 1998, the post of 
Ambassador-at-Large for International Religious Freedom was 
created. It's vacant and it really needs to be filled. The 
President, last week at the National Prayer Breakfast, 
suggested a nomination would be coming quickly.
    I hope so, because this is the key official within the U.S. 
Government executive branch coordinating and developing U.S. 
policy for international religious freedom, and if there is a 
long vacancy, it weakens the attention of the executive branch, 
it weakens the efforts in the executive branch, and it sends a 
message to countries around the world of inattention and lack 
of concern. So I think we all hope that a nomination comes 
forward very quickly.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Abrams follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Secretary Abrams, thank you very much, and 
without objection your full very extensive testimony which goes 
country by country by country will be made a part of the record 
and I do hope members--I know members who are here will read it 
because they're all so very interested, will read it and I 
respectfully hope that the press will look at it as well 
because it really gives insights as to what's truly happening 
on a country by country basis.
    And I remind everyone that when your commission was 
established by Frank Wolf's bill the whole idea was to provide 
an appraisal of the situation on the ground accurately, to be 
independent, to be comprehensive, because we know so often 
human rights are an irritant to much of--many of those who do 
statecraft and religious freedom even more so, and one of the 
things that Mr. Wolf put in his bill was to train Foreign 
Service Officers to be much more knowledgeable about all things 
pertaining to religious freedom and religious organizations and 
individuals.
    You perhaps might want to touch on whether or not you think 
that's happening but I'm glad you brought up the Ambassador-at-
Large and I do hope the President follows through on his Prayer 
Breakfast promise.
    We've had an administration where 2\1/2\ years there was an 
Ambassador-at-Large, but for the rest of this administration's 
time, there has been no Ambassador-at-Large and that is the 
point person and so that's a missed opportunity that is huge 
and hope that is filled soon.
    Just one general question, if I could. Do you find when the 
commission makes its recommendations like which countries ought 
to be designated Countries of Particular Concern (CPC), as you 
have done repeatedly with Vietnam, for example, do you find 
that the administration is receptive or do they push back?
    You know, we push too. You know, we've been trying to get 
the administration and every time, a high official appears, 
whether it be on Vietnam or others--and others do raise the 
issue--what is the delay in promulgating those designations?
    And then, just as important, ensuring that step two, the 
other shoe, that real sanctions--and there are 18 of them 
prescribed in the act--are followed up on? And some of those 
sanctions are very significant and would definitely get the 
attention of an offending country.
    Mr. Abrams. Thank you for the question.
    The system is not working. It's not working properly. It's 
not working the way it was established in the act. It hasn't 
under several administrations, I have to say.
    It's not just the Obama administration. The Obama 
administration made CPC designations only once in the first 4 
years and the act requires them every year.
    And actually, Mr. Pitts, Mr. Wolf and you, Mr. Chairman, 
wrote a letter about this, of course, last May which I'd like 
to submit for the record because I think it's----
    Mr. Smith. Without objection, so ordered.
    Mr. Abrams [continuing]. A useful reminder of this. The 
problem is in part that it sends a message to other governments 
that we don't care, and there are a lot of things that can be 
done.
    On the sanctions angle, all too often there are no 
sanctions or there's a double hatting. That is, you have a 
country that's under some other sanction and so you say oh, 
that's for religious freedom too.
    But the act provides for a lot of flexibility. It provides 
an opportunity to go to a country, to a foreign government and 
say we care about this--something needs to be done.
    Just as an example, you can take action--the U.S. 
Government can take action against individual members of a 
foreign government who are involved in religious persecution, 
officials of that government, officials of provinces, officials 
of units of that government to name names and say that those 
people, for example, will never be admitted to the United 
States.
    There's lots of flexibility and I'm afraid we're not using 
it. And so the message that comes across is one of inattention 
and the CPC's system, I would say, is broken.
    Mr. Smith. Chairman Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    And Elliott, again, thank you over the years for all you've 
done to make sure--we get a lot out of focus too. We start 
focusing just on some of the problems--daily problems that we 
have and sometimes free people can forget the big picture and 
the big picture, of course, are these moral trends that are 
permeating the world and that United States should be an 
influence in the right direction.
    The question I have to ask is this and , again, a more 
perplexing question. Our business community insists that if 
they do business in dictatorships like China and like Vietnam 
now--we have a business community rushing into Vietnam to take 
advantage of their labor--they insist that by being there and 
doing business that that will help reform and protect the 
rights of people like religious believers. What is the record 
there in terms of China and Vietnam?
    Has the presence of an American business community been a 
positive element toward the securing of certain rights or has 
it been just the opposite or just what has the effect been?
    Mr. Abrams. My impression is that it has had no positive 
impact on international religious freedom. I mean, we did a lot 
of business with Nazi Germany too in the 30s and that didn't 
have much of an impact on religious freedom.
    What has had an impact is when the U.S. Government puts 
pressure on and we see this in the case of Vietnam. Religious 
freedom has risen and fallen. The amount of persecution by the 
government has not stayed level.
    It rises and falls, and one of the bases on which it rises 
and falls is the Vietnamese Government's impression of what it 
needs to do to get U.S. Government approval for that commerce 
to increase.
    So I don't blame the businessmen. That's their business. 
But it's up to the U.S. Government, I think, to set the rules 
and to keep the pressure on.
    Mr. Rohrabacher. Would it be right for us to expect that if 
a businessman invests like in Vietnam or China and to be able 
to at least enforce on their own grounds the right of these 
people to have a Bible in their possession, et cetera?
    Mr. Abrams. I think it would be a great thing for 
businesses to try to do. It's hard. We see this in the case of 
American universities which are active in China where the 
amount of free speech, free thought, academic freedom that is 
available is quite limited and universities are having to 
figure out are they going to stay in China under those 
conditions.
    But I would think that businesses should at least try this. 
I don't know if we're going to see many profiles in courage but 
it would be very nice to see a few.
    Mr. Rohrabacher. I would hope that businessmen that 
consider themselves Christians--I can't speak for other faiths 
here but if they consider themselves to be Christians they 
should be willing to commit that at least in their own 
operations that they would promote and protect people of faith 
and----
    Mr. Abrams. I think that's a great idea.
    Mr. Rohrabacher. All right. Well, thank you very much, 
Elliott.
    Mr. Smith. Mr. Meadows.
    Mr. Meadows. Thank you.
    It's good to see you again. Thank you for your service. The 
students at Georgetown have a real jewel. I've found you to be 
someone who is unrelenting but analytical and looking at the 
facts and I think that your written testimony today is an 
example of that.
    My question for you is, really, you've highlighted it a 
little bit in terms of this is not just this administration's 
problem. It's a problem that has persisted, and yet here in 
just a few minutes I'll be meeting with business leaders 
representing business leaders from Egypt.
    And yet most of the time when discussions happen they're 
either purely human rights or religious freedom discussions or 
purely economic and business, and it seems like that we have a 
tough time coupling the two together.
    So what would you say are the major impediments to doing 
that in terms of either with the State Department or with us as 
Congress? How can we do a better job of coupling those two 
together?
    Mr. Abrams. Well, it is hard, particularly because 
businessmen are interested in serving their shareholders and 
making a profit.
    So I think we need to arm them with the ability to say to 
the Egyptians in the case you mentioned commerce is not going 
to be possible, it's not going to thrive, it's not going to 
grow under conditions of religious persecution and disorder.
    The bitterness and violence that creates in Egypt will be 
communicated to American businessmen and they won't want to go 
to Egypt.
    You know, there are many other places to invest in the 
world. So I think the way to bring it together is try to make 
an argument for their self-interest, that if the American 
impression of Egypt is a place that is being torn by violence 
and sectarian hatred and persecution of Christians, they're not 
going to get the investment they want.
    Mr. Meadows. And one follow-up to that, if you don't mind. 
So you mentioned about filling this particular position. What 
else can be done in terms of work with the State Department to 
help make this part of the dialogue when negotiations are going 
on?
    Mr. Abrams. Well, when you have hearings and have State 
Department officials up here, ask them about it and press them 
on the record, their own record or the record of their own part 
of the State Department.
    Some Embassies are much better at this than others and I 
think that's something worth asking about as well. Urge the 
administration to name their Countries of Particular Concern.
    I think it's very important also to talk about specific 
political prisoners in public and also with members of the 
administration--what has been said.
    It really is important. If you go back to the Soviet days, 
people in the Gulag told us the mentioning of names was 
critically important when they heard it from a President, the 
Secretary of State, Members of Congress.
    I think you can do it when you visit as part of CODELs and 
you can ask high officials of the executive branch to do it 
when they come up here for testimony and when they visit.
    And then I think this question of adopting political 
prisoners, which about 20 Members of Congress have done, is a 
great idea and can really motivate communities back home too.
    Mr. Meadows. Thank you very much. I yield back, Mr. 
Chairman.
    Mr. Smith. Chairman Wolf.
    Mr. Wolf. Thank you, Secretary Abrams. We welcome you.
    When Mr. Smith was reading your bio, something just popped 
out at me. You have worked for the two biggest giants on this 
issue--President Reagan and Senator Jackson--and I guess what I 
wanted, and maybe this is not the time but what--I think they 
were great men so we just put that out there. One was a 
Democrat and one was a Republican.
    But what creates the Jacksons and the Reagans? Is it that 
they lead the nation? Because President Reagan gave the speech 
the evil empire, tear down the wall--Secretary Shultz wore the 
bracelet, went to Moscow.
    Scoop Jackson did what he did. But did that come from the 
people to the Congress and the executive branch or did 
President Reagan who is, I think, the leader and Scoop Jackson 
the leader did they then mobilize it whereby the people then--
am I making myself clear? Where did that come from?
    Mr. Abrams. Let me say at the beginning that I 
unfortunately never worked for the third giant on this issue, 
which is you, Mr. Wolf.
    I think it came from within them. I think they had a belief 
that these values that we're talking about are the values of 
the American people and that therefore our foreign policy had 
to reflect those values, that you couldn't have a foreign 
policy that was what was then known as based on realpolitik, 
that you had to have a foreign policy that represented the 
moral values of the American people and that if you tried to do 
that the American people would support that effort.
    So I think it came from within them but it was based on a 
view of the nation and the American people that led them to say 
this--our foreign policy has got to reflect our moral values.
    Mr. Smith. Thank you, Chairman Wolf.
    Mr. Marino.
    Mr. Marino. Thank you, Chairman. I apologize for being 
late. I'm trying to juggle, like everyone else is, four or five 
things.
    Mr. Secretary, it's a privilege and an honor to see you 
again. Welcome. I always enjoy our exchanges, and if I am 
asking a question that has already been asked just give me the 
high sign and I'll read the Cliff's Notes on it.
    But we know what persecution is taking place. We know with 
reasonable certainty where it is taking place. What can the 
United States do or what should we do concerning sanctions with 
these countries?
    Mr. Abrams. The International Religious Freedom Act 
mentions a wide variety of possible sanctions, some of which 
can be individual sanctions on officials who've engaged in 
persecution and some of which, of course, are what we usually 
think of economic sanctions.
    I think that what we need to convey to the governments that 
are engaging in persecution or permitting it with impunity is 
we care and this will affect our relations. Sanctions are not 
always the right formula.
    I think you begin by showing that you care about this and 
the sanctions are actually just a way of sending the message. 
There are many ways of sending the message.
    Secretary Shultz, who Mr. Wolf mentioned, did it by making 
sure that he raised human rights issues at the beginning of 
meetings with the Russians under the view that, you know, if 
it's the last thing you mention when the clock is running out 
they know that. They see that.
    So he wanted to make sure they realized that for him this 
came first. I think there are going to be cases where we will 
find talking with them about it doesn't work. Engagement fails.
    Going after individual officials may fail, and you may want 
to try to impose some form of economic sanction to just get the 
message home that this will cost you in your relations with the 
United States. We will not have normal relations if this kind 
of persecution goes on. So I don't think it should be taken off 
the table.
    There will be cases where it's perhaps the last resort but 
it's the right thing to do. I think it's got to be part of the 
spectrum of possible moves by the United States Government.
    Mr. Marino. From an economic standpoint and from a trade 
perspective, are we in a position to deal with this? Is this 
something that we are looking at the lesser of the two evils 
and saying if we do talk about, and I'm going to focus in on 
sanctions--monetary sanctions or trade sanctions--how much of 
an impact--how much of a negative impact is that going to have 
on our economy?
    Mr. Abrams. Well, it will vary, of course, Mr. Marino, from 
case to case. In the case of our sanctions on Iran, for 
example, or our sanctions a few decades ago on Iraq, I think 
it's hard to make an argument that it's very damaging to the 
United States.
    It's usually more damaging for the other country because we 
have this fantastically rich market and they want to be able to 
access it and they want to be able to get American investment.
    So I think usually we can be the beneficiary of this. That 
is, we will not suffer very much. They'll be the ones who are 
suffering. There will be cases.
    I mean, China, obviously, is a gigantic market and American 
businesses want to access that market and it's also true that 
it's very hard in the case of a government like that, a 
communist regime, to speak to them persuasively on the subject 
of religious freedom.
    I know President Bush tried, constantly, to talk to the 
Chinese leaders about their misunderstanding of the nature of 
religious freedom and of the role of religion in society. I 
think it's fair to say he got nowhere.
    So there are going to be cases where economic sanctions may 
actually hurt the United States and will not advance the cause 
of religious freedom. I think it has to be a case by case 
analysis.
    But there are so many--if you look at the list of countries 
there are so many of them that are under developed or middle 
income or poor and they're desperate for American investment 
and access to the U.S. market and in those many cases, economic 
and financial sanctions can have an impact.
    Mr. Marino. Particularly in the--on the continent of Africa 
we have a tremendous capability there if we, as we say back in 
Pennsylvania, play our cards right. I've been to China. I met 
with the officials.
    They're very polite, give real good lip service and even 
when they're here visiting. But, again, we can tell that just 
from the tenor of the conversation it's we will listen but 
nothing will change. So I think we need to ask State to take a 
very serious look at these matters.
    I thank you again. It's a pleasure. I yield back.
    Mr. Smith. Just to conclude and just one final question, if 
I could, Mr. Secretary, and again, your testimony speaks to one 
country after the other and I appreciated you highlighting the 
Central African Republic.
    We had a hearing on November 19th here in this room and we 
heard from Bishop Nongo who told us how escalating the 
outsiders especially where on the radical Islamic side, you 
know, he said moderate Muslims are no problem but the 
radicalized ones, just like in Nigeria with the Boko Haram and 
yesterday there was a very heartbreaking story in the 
Washington Post about a man whose throat was slit, was 
Christian and his family wheeling him off in a wheelbarrow.
    I mean, these are sorrowful situations that are beyond 
words. One of the things that Greg Simpkins and I took away 
from our trip to Jos, Nigeria, we met with the evangelicals, 
the Christians. We went to firebombed churches.
    We heard at great length from individuals who had lost 
loved ones, who were tortured themselves, who had, sadly, scars 
from the flames and in one case the man, as I mentioned 
earlier, who was literally shot in the face with an AK-47.
    But one of the biggest takeaways, however, was that the 
Catholic bishop was working very closely with the imams in Jos 
and I mean very close to try to put up a united front against 
this extremism by Boko Haram, and one of the clerics said that 
if we speak out against Boko Haram on a Friday we will be dead 
as Muslims on Saturday.
    So I think the more our Government does to get around all 
those who wish peace and reconciliation and tolerance the 
better and, again, if you'd like to comment, that would be 
great.
    But Bishop Nongo couldn't have been more clear and he also 
fought the international community to some extent as have 
others with this idea that well, both sides are doing it. No, 
there is an aggressor. We saw it in Bosnia.
    Remember when people would say oh, well, the Croats first 
in Croatia, then in Bosnia and Mr. Wolf and I were in Vukovar 
right before it fell, met with Slobodan Milosevic who said he 
had nothing to do with the MiGs flying over dropping bombs that 
we saw ourselves and yet the international community says well, 
both are at fault.
    No, one was the aggressor. One was defending themselves and 
I think the same thing is happening but I think the ally that 
gets overlooked is that there are a lot of moderate Muslims as 
we saw, Greg and I, in Jos who are saying we want to pursue our 
faith--we do not want this violence.
    And secondly, your comments on China were excellent about 
not staying within the confines of the human rights dialogue. 
To me, that is a dead end, a cul-de-sac.
    It is a hermetically sealed kind of conversation that has 
such limited impact and as you know yourself during the Bush 
administration even with some of the other countries like 
Vietnam we would suspend them because they were a venting--you 
know, it was an X in the box for State Department people to 
come to that table and say oh, but we're having a human rights 
dialogue.
    It needs to be integrated with all things related to that 
country and, as you pointed out, all the sanctions prescribed 
by Mr. Wolf's bill vis-a-vis China, and you said it earlier, 
why aren't they being adhered to--why aren't we making a huge 
point of holding torturers of Christians and all faiths so they 
don't get visas.
    It means making a list. It means some due diligence on the 
part of State and I would say parenthetically I also did a bill 
in 2000, the Admiral James W. Nance and Meg Donovan Foreign 
Relations Authorization Act--it was my law--we put a provision 
there that said on a related human rights abuse, forced 
abortion, that anyone involved with that heinous crime is 
inadmissible to the U.S.
    We asked the Congressional Research Service how often it's 
been implemented--less than 30 times, and that was, you know, 
on a crime against women that has been without parallel. So, 
Secretary, if you want to make any concluding remarks, but 
thank you.
    Mr. Abrams. Just very briefly, Mr. Chairman, thank you 
again for holding this hearing.
    I think that something was said at the very beginning that 
we as a country have been reluctant to weigh in on the question 
of persecution of Christians in particular and we shouldn't be.
    It's not a form of colonialism or imperialism. It's a 
defense of human rights. It's a defense of the Universal 
Declaration of Human Rights. All these countries have pledged 
to protect religious freedom and they're violating their own 
pledges.
    So we should not be at all restrained or hesitant in 
raising this and pressing this cause, and I thank you for doing 
it today.
    Mr. Smith. Thank you so much, Mr. Secretary.
    I'd like to now welcome our second panel, beginning first 
with Mr. John Allen who is an American journalist who 
specializes in news about the Catholic Church and is considered 
one of the foremost experts on the Vatican.
    He recently became an associate editor with the Boston 
Globe. Prior to that, he was a senior correspondent for the 
National Catholic Reporter where he worked from 1998 until this 
year and has served as an analyst of Vatican affairs for CNN 
and NPR.
    Mr. Allen is also author of several books about the 
Catholic Church and has written two biographies of Pope 
Benedict XVI. He is also the author of ``The Global War on 
Christians: Dispatches From the Front Lines of Anti-Christian 
Persecution.''
    We will then hear from Ms. Tehmina Arora, who is an 
attorney with the Alliance Defending Freedom in India, a 
position she has held since January 2012. Her work focusing on 
protecting minority rights and religious freedom includes 
litigating cases and conducting legal training.
    Previously, she worked as the advocacy director at the 
Evangelical Fellowship of India where she managed a team of 
attorneys and advocates who worked for the rights of 
Christians.
    We'll then hear from Mr. Benedict Rogers, who is East Asian 
team leader at Christian Solidarity Worldwide where he 
specializes in Burma, Indonesia, and North Korea. He's the 
author of five books and several major reports.
    Mr. Rogers travels widely in the region including making 
more than 40 visits to Burma and its borderland, several visits 
to Indonesia and a trip to North Korea.
    He is a regular contributor to international media 
including several major newspapers and television networks.
    And then we'll hear from Mr. Jorge Lee Galindo, who's the 
director of Impulso 18, a non-governmental organization 
dedicated to promoting and defending liberty of belief in 
religion in Mexico. He has helped establish many religious 
organizations in Mexico and acts as the legal representative 
for many of them.
    He has given presentations at various fora, seminars, 
workshops, and roundtables and given many interviews on radio 
programs on things related to ecclesiastical law in Mexico.
    In addition, Mr. Galindo was president of the Latin 
American Network of Christian Lawyers from 2006 to 2010 and 
currently acts as legal counsel to that network.
    And finally, we'll hear from Dr. Khataza Gondwe, who is 
currently team leader for Africa and the Middle East at 
Christian Solidarity Worldwide. She researches religious 
liberties issues and promotes awareness through interviews and 
articles in international media and elsewhere.
    She's worked extensively on religious-related violence in 
Nigeria and the dire human rights and religious freedom 
situation in Eritrea, the rise of sectarian violence in Egypt, 
and the harassment of the house church in Iran.
    I thank you again for being here and providing the 
subcommittee the benefits of your wisdom and counsel.

STATEMENT OF MR. JOHN ALLEN, ASSOCIATE EDITOR, THE BOSTON GLOBE

    Mr. Allen. Thank you, Mr. Chairman. Thank you for holding 
this hearing on what I have come to see as the premier human 
rights issue of the early 21st century as well as the greatest 
story never told about Christianity in our time. I'll begin 
very quickly with an overview of the global situation.
    There are an estimated 2.3 billion Christians in the world 
today, which makes Christianity the largest single religious 
tradition on the planet, representing about one third of the 
human population.
    Christianity's greatest growth in the early 21st century is 
occurring in Africa--sub-Saharan Africa--and parts of Asia.
    The Christian population in Latin America has remained 
relatively constant but there has been tremendous movement from 
the majority Catholic tradition to expanding Evangelical and 
Pentecostal churches.
    Despite the dire decline in the indigenous Arab Christian 
population of the Middle East, there is actually a burgeoning 
pocket of Christianity in the Middle East and the Gulf States 
composed not of natives but of expats drawn to work in the 
domestic service and oil industries.
    Interesting tidbit--there are 1.5 million Catholics alone 
in Saudi Arabia today, 1.3 million of whom are Filipinos. It's 
the largest Filipino diaspora in that part of the world.
    Bottom line is that Christianity's most dramatic growth 
today is coming in neighborhoods that are not always 
distinguished by a robust respect for religious freedom, which 
is one factor feeling what I've described as a global war on 
Christians.
    The high end estimate for the number of Christians killed 
for their faith every year today is 100,000. That's a number 
that comes from the Center for the Study of Global Christianity 
at Gordon-Conwell Theological Seminary.
    There are others who would put the number lower. Thomas 
Schirrmacher of the World Evangelical Alliance pegs the number 
at 20 new martyrs per day, which adds up to about 7,300 a year.
    American scholar Rodney Stark goes lower still. He thinks 
the number is a few hundred per year. Of course, all this 
hinges on how you define religious persecution.
    Bottom line, however, is that the high end estimate would 
put the number of Christians killed for their faith every year 
at one per hour. The low end estimate puts it at one per day.
    Wherever the truth lies, this is a global scourge that 
commands our attention, and there are other indices. The Pew 
Forum finds that Christians suffer some form of harassment 
either de jure or de facto in a staggering total of 139 
countries. That's two-thirds of all societies on Earth.
    The United States Commission on International Religious 
Freedom--we've already heard from Secretary Abrams--finds that 
Christians are the only religious tradition discriminated 
against in all 16 of the top 16 offenders. That's from their 
2010 report.
    The National Consortium for the Study of Terrorism and 
Responses to Terrorism found that between 2003 and 2011 
terroristic attacks on Christians around the world shot up by 
139 percent and the evangelical advocacy and relief 
organization Open Doors estimates that roughly 100 million 
Christians a day are subject to some form of physical coercion, 
arrest, torture and so on.
    A few brief snapshots of what's happening--we already heard 
mention of the attack on the Syria Catholic Cathedral of Our 
Lady of Salvation in downtown Baghdad on October 31st, 2010.
    In itself the fact the church was bombed that day is no 
novelty. Of the 63 Christian churches in Baghdad, 40 of them 
have been bombed at least once since 2003. What followed was 
unusual. A band of the Islamic fundamentalist gunmen stormed 
the church, they shot the priest saying Mass, they shot the two 
deacons assisting him.
    They left more than 50 people dead. I had the opportunity 
to interview one of the survivors, a young Chaldean woman by 
the name of Fatima who now lives in Rome and who dedicates 
every waking moment of her life to helping her fellow 
Christians get out of Iraq. She survived that day. She was 
singing in the choir.
    She survived that day by pulling bodies over her and 
playing dead for the agonizing 4 hours it took for someone to 
come and liberate the church. One hopes she is wrong in her 
prognosis that Christianity has no future in Iraq but it is 
impossible to fault either the personal experience or the 
reasoning that has led her to that conclusion.
    But it would be mistaken to think that anti-Christian 
persecution is entirely an artifact of radical Islam. The most 
violent anti-Christian pogrom of the early 21st century 
actually occurred in the northeastern Indian state of Orissa in 
2008 when machete-wielding Hindu radicals attacked a series of 
Christian targets, left as many as 500 Christians killed, at 
least 50,000 homeless, many of them taking refuge in a nearby 
forest for weeks. An estimated 5,000 Christian homes, hundreds 
of churches and schools and so on were destroyed.
    In Burma, members of the Chin and Karen ethnic groups who 
are strongly Christian are considered dissidents by the regime, 
subject to various forms of imprisonment, torture, forced 
labor.
    Their communities have actually even been targeted by 
helicopter strikes. A Burmese air force official confirmed in 
talking to foreign press that these zones of majority Christian 
population are considered free fire zones and they basically 
have a fire on sight warrant.
    Mr. Chairman, you've already talked about the mayhem 
currently being unleashed in Nigeria by the militant Boko Haram 
movement. North Korea, of course, is widely considered the 
single most dangerous place on the planet to be a Christian.
    Roughly a quarter of the country's 200,000 to 400,000 
Christians are believed to be living in forced labor camps. The 
anti-Christian animus is so strong that people with Christian 
grandparents are frozen out of senior government jobs, senior 
positions in the military, senior levels of economic life and 
so on.
    The estimate is that some 300,000 Christians in North Korea 
have disappeared since the armistice in the 1950s. And these, 
by the way, are illustrative examples. This is by no means the 
whole story.
    To conclude, a brief thought about why this global war on 
Christians is so often wrapped in silence. Frankly, Mr. 
Chairman, I believe we have a problem with narrative.
    In the West, we are conditioned to think of Christianity as 
an all-powerful, all-controlling, wealthy, vastly influential 
social institution, which makes it very difficult for ordinary 
Americans to get their minds around the idea that Christians 
can actually be the victims of persecution.
    Say religious persecution to most Americans, the images 
that come to mind are the Crusades, the Inquisition, the wars 
of religion and so on--chapters of history in which 
Christianity was, of course, the villain.
    This narrative is badly out of date but it's done little to 
weaken its hold on our imagination. The truth, the demographic 
and practical truth, is that the typical Christian in this 
world is not an affluent American male pulling up to church in 
a Lincoln Continental.
    The typical Christian in the early 21st century is a poor 
woman of color and mother of four in Botswana or a poor Dalit 
grandmother in Orissa. The reality is this. Projections are 
that the share of the Christian population that's living 
outside the West and in the developing world is going to reach 
three-quarters by the middle of this century. These Christians 
often carry a double or triple stigma representing not only 
their faith but also often an oppressed ethnic group or a 
social class and they are perhaps--this is the most fundamental 
fact--they are targets of convenience for anyone who is angry 
with the West.
    It is very difficult for ordinary people, obviously not 
impossible but difficult, to strike against an American Embassy 
or the headquarters of the European Union.
    It is very easy to walk down the block and attack the 
Christian church that is on that corner even though the irony 
is often the Christians in that society have deeper historical 
and cultural roots than their assailants do.
    The point is this. I think as a Christian we have perhaps 
special cause to be concerned with this rising tide of anti-
Christian violence but I think it requires no religious faith 
whatsoever to see this as a towering human rights concern.
    You did not have to be Jewish in the 60s and 70s to be 
concerned about dissident Jews in the Soviet Union, you did not 
have to be black in the 80s to be concerned about apartheid in 
South Africa and you do not have to be Christian today to see 
our ability to defend Christians at risk as the key test, ``the 
canary in the coal mine'' for our ability to mobilize any human 
rights concern at all.
    And to the extent, Mr. Chairman, you can change the 
narrative, thank you for your effort in doing so.
    [The prepared statement of Mr. Allen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Allen, for your very 
comprehensive look and for your leadership.
    Ms. Arora.

 STATEMENT OF MS. TEHMINA ARORA, ATTORNEY, ALLIANCE DEFENDING 
                         FREEDOM-INDIA

    Ms. Arora. Mr. Chairman, members of the committee, thank 
you for holding this important hearing and inviting me to 
testify today.
    India, in spite of its long tradition of religious 
tolerance, finds itself struggling with violence against 
religious minorities. While the Muslim community bears the 
brunt of this violence, over the recent years the tiny 
Christian community which stands at a mere 2.3 percent of the 
population has faced increased hostility.
    Reports by faith-based rights agencies show that Christians 
suffer an average of 150 violent attacks annually with many 
more going unreported. These attacks include physical and 
sexual assault, brutal murders, and desecration of places of 
worship and graveyards.
    My written submission contains more details. With the 
exception of the state of Orissa in 2007 and 2008, the attacks 
are scattered and are primarily concentrated in the states 
where Hindu nationalist party, the Bharatiya Janata Party, or 
the BJP, is in power.
    The states of Karnataka, Madhya Pradesh, and Chhattisgarh 
have recorded the most number of attacks in the past 2 years.
    Perpetrated on the pretext of preventing forcible 
conversion, the attacks are often carried out by Hindu 
extremists who see India as a Hindu nation with a common 
fatherland, language, religion, and culture. This ideology 
leaves little space for religious minorities.
    The agencies involved in such attacks include the Bajrang 
Dal, the Dharmasena, the Hindu Vahini, the Ram Sena, all 
offshoots of the umbrella Hindu nationalist group, the 
Rashtriya Swayamsevak Sangh, or the RSS. Recent media reports 
suggest the involvement of members of similar groups also in 
terror attacks including the bombing of trains, mosques, and 
churches.
    One cannot forget that the RSS has been banned on previous 
occasions for fomenting violence against religious minorities. 
It is deeply disconcerting to see the BJP prime minister 
candidate and present chief minister of Gujarat, Mr. Modi, 
openly align himself with this ideology as a member of the RSS 
and call himself a Hindu nationalist.
    Christian persecution, however, is not just about violence. 
It is compounded by the impunity enjoyed by the violent mobs 
which is also a cause for concern. Many victims of violence 
complain of the lack of police action including hostility 
toward Christians.
    The impunity was most evident in Orissa and in 2008 violent 
mobs killed over 75 people, mostly Christians, burned over 
5,000 homes and over 260 churches and prayer halls. Though 
approximately 2,500 complaints were registered of mob violence, 
only 828 were ever registered by the police. Charges were 
framed against the accused in only 512 cases, most of which 
ended in acquittals. Only nine people have ever been convicted 
of killing two Christians.
    The police also failed to record statements of key 
witnesses, conduct test identification periods, and collect and 
send forensic evidence which resulted in acquittals for lack of 
evidence.
    According to the government's own records, only 15 appeals 
were filed by the state in over 180 cases in which more than 
2,700 people were acquitted. Apart from the violence, I would 
also like to draw your attention to two discriminatory laws 
which greatly restrict the freedom of religion in India.
    Six Indian states have enacted laws titled Freedom of 
Religion Acts, or anti-conversion laws as they are more 
commonly known.
    These laws require the person converting to give details of 
his or her conversion to the district administrative head 
either prior to the conversion ceremony or subsequent to it. 
The law in Gujarat requires you to take prior permission before 
a conversion.
    The laws penalize any failure to report a religious 
conversion with jail terms up to 1 year and fines. The laws 
also penalize conversion by force, fraud or inducement or 
allurement with jail terms up to 5 years or fines up to $1,500.
    Repeatedly, these vague laws have been used to target and 
harass Christians. Hindu extremists have frequently worked the 
anti-conversion laws to incite mob violence and having 
Christians arrested without evidence. The acts are weak and do 
not carry the required checks and balances to ensure protection 
against their misuse.
    They violate the freedom of association and conscience and 
the right to privacy. They make every religious conversion 
suspect and liable for scrutiny and remove the agency of the 
convertee, allowing the state to determine if the conversion is 
valid or not.
    In September 2012, the High Court of Himachal Pradesh 
declared a section of the Himachal Pradesh law as 
unconstitutional which required the person to give a 30-day 
prior notice to the district administration.
    The court held that the procedure was violative of the 
Indian constitution. However, similar provisions remain in 
other state laws. The second law I would like to talk about is 
the 1950 Presidential order which states that no person who 
professes a religion different from the Hindu, Sikh, or 
Buddhist religion shall be deemed to be a member of the 
Schedule Caste.
    As you may know, that due to the oppressive caste system in 
India there are policies and laws that allow affirmative action 
and special protection for the Dalit or Schedule Caste 
communities. However, Dalits who accept Christianity are denied 
protections and benefits available to other Hindu, Sikh, or 
Buddhist Dalits merely on account of their religious beliefs.
    This is despite the fact that the disadvantages and 
discriminations faced by Dalit Christians are well documented 
by several agencies including those of the government. A 
petition is pending before the Supreme Court of India since 
2004 but the government hasn't filed its reply to date.
    In closing, I would like to make a few recommendations. I 
would urge you to support the resolution for protecting 
religious freedom in India. I would urge you to follow up on 
the recommendation of the Government of the United States to 
the Government of India to ensure that laws are fully and 
consistently enforced to provide adequate protection for 
members of religious minorities in the recent Universal 
Periodic Review.
    I would urge you to send delegations to meet with victims 
of violence and visit sites of community violence. This has 
been hugely helpful, especially in this case of Orissa, to see 
whether the recommendations are being met and to better 
understand the complexities of the issues involved, to use 
appropriate forms of dialogue to raise concerns about the 
status of religious minorities and the impunity enjoyed by 
Hindutva forces and continue to find ways to fund civil society 
efforts to combat human rights abuses and promote religious 
tolerance.
    Thank you.
    [The prepared statement of Ms. Arora follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Ms. Arora, thank you very much for your 
testimony. Without objection, your full statement, which was 
very heavily documented and footnoted, will be made a part of 
the record and all of your full statements as well. But thank 
you so much.
    Ms. Arora. Thank you.
    Mr. Smith. Mr. Rogers.

 STATEMENT OF MR. BENEDICT ROGERS, TEAM LEADER FOR EAST ASIA, 
                 CHRISTIAN SOLIDARITY WORLDWIDE

    Mr. Rogers. Mr. Chairman, distinguished members, may I 
first of all thank you very much indeed for holding this 
hearing on this critically important subject, for giving me the 
opportunity to testify and may I also pay tribute to your many 
years of leadership and activism on this and other human rights 
issues.
    In the limited time available today I intend to concentrate 
my remarks on just two areas of focus--Indonesia and Burma. But 
I have provided written testimony on Vietnam and Laos as well.
    And I'd like to just begin by echoing very strongly your 
remarks made at the beginning by saying that in Christian 
Solidarity Worldwide we work very much for freedom of religion 
or belief for all. Freedom of religion is indivisible and is a 
basic right to which all people of all beliefs in every country 
are entitled.
    And in that context, whilst I talk about Indonesia and 
Burma, it's important to note that other religious groups face 
severe persecution, particularly the Ahmadiyya and Shi'a 
Muslims in Indonesia and the Rohingyas and other Muslims in 
Burma.
    Nevertheless, I would absolutely agree that Christianity is 
the most widely persecuted religion in the world today, facing 
threats from a wide range of sources in almost every corner of 
the globe.
    And so I turn now to two parts of the globe starting with 
Indonesia, the world's largest Muslim majority nation, a nation 
that has made a remarkable transition from authoritarianism to 
democracy, a nation that has a tremendous tradition of 
religious pluralism, harmony and freedom, and yet that 
tradition of religious pluralism in Indonesia is increasingly 
under threat. Two weeks today CSW will launch in London a major 
new report, and I just hold it up--I believe it has been sent 
to your office this morning because it has just gone to print 
today--``Indonesia Pluralism in Peril: The Rise of Religious 
Intolerance Across the Archipelago.''
    For Christians in Indonesia, there are two major threats--
regulatory restrictions and vigilante intimidation and 
violence. According to the Communion of Churches in Indonesia, 
at least 430 churches have been attacked, closed down or burnt 
down since 2004.
    According to the Jakarta Christian Communication Forum, the 
number of attacks against Christian churches reached a total of 
75 in 2012, which marks a steady rise from 10 in 2009 to 47 in 
2010 and 64 in 2011.
    The situation is most severe in Aceh, where in May 2012 17 
churches were closed down. Christians in Aceh live in fear and 
worship in secret. However, the persecution of Christians in 
Indonesia is by no means confined to Aceh.
    In West Java, for example, there have been several cases 
where churches which are legally licensed have been forced by 
local mayors to close and in at least two cases those churches 
have challenged the mayor's ruling to close them in the courts.
    In both those cases, the courts have ruled in favor of the 
churches including all the way up to the Supreme Court and yet 
the mayor refuses still to permit the churches to open in 
defiance of the Indonesian Supreme Court.
    I visited both those churches. I've stood with 
congregations outside their locked church building as they 
attempted to hold a Sunday service in the street outside 
because they were not permitted to use their building.
    And in both instances we were surrounded by a mob of angry 
Islamists shouting things like, ``Christians, get out. Kill the 
Christians.''
    The pastor of one of those churches, the Reverend Palti 
Panjaitan, whom I've interviewed four times, has received death 
threats, false criminal charges and constant abuse.
    Last year I interviewed Pastor Bernhard Maukar of a 
Pentecostal church in West Java. His church has been attacked 
several times. On one occasion, a mob climbed over the gates 
during a Sunday service and he told me, and I quote,

        ``They pulled me by my tie, taking me to the gate. They 
        took other church members, pulling them by their 
        clothes. They were shouting, `Go out, Reverend. We will 
        kill you.' Our church members ran away. Some of them 
        were teenagers and children and they were traumatized 
        by the experience.''

    On the 27th of January, 2013, his church was attacked again 
and he was beaten. Two days later, Pastor Bernhard, not his 
attackers, was sentenced to 3 months in prison for running an 
unregistered church.
    This year, Indonesia will hold both parliamentary and 
Presidential elections. I have more detailed recommendations in 
my written submission but the key recommendation I would 
highlight is that it's essential that these concerns are raised 
with all the Indonesian Presidential candidates and the new 
President, once he's elected, is encouraged by the 
international community to address these concerns.
    I turn now to Burma. In many respects, in the past 2 years 
there have been some extraordinary changes in Burma and I 
wholeheartedly welcome the progress.
    However, there is still a very long way to go and in 
relation to freedom of religion there have been serious 
setbacks with a severe and dramatic rise in anti-Muslim hatred 
and violence, which I've been involved in trying to address.
    Christians have not so far been widely targeted by this 
rise in what I can only describe as militant Burman Buddhist 
nationalism, although there are reasonable concerns that that 
movement currently focused on the Muslim community could affect 
Christians in the future.
    But on the whole, whilst Christians have not been targeted 
by Buddhists in society, decades of discrimination by 
successive military regimes have left a legacy of policies of 
discrimination which continue.
    In 2007, CSW published a report called, ``Carrying the 
Cross: The Military Regime's Campaign of Restriction, 
Discrimination and Persecution Against Christians in Burma,'' 
and although that report is now 7 years old much of the 
evidence is still valid today.
    More recently, the Chin human rights organization with whom 
we work very closely has published two excellent reports.
    Both CSW and CHRO have documented serious violations of 
freedom of religion affecting Christians in Burma, notably the 
destruction of crosses in ethnic Chin and Kachin states, and 
the military's role enforcing Chin Christians to build Buddhist 
pagodas in place of crosses.
    There's also been cases of forcible and coerced conversion 
of Chin Christians to Buddhism often through the provision of 
education in military-run schools and discrimination in public 
service.
    As I draw to a close, I just want to share one story. In 
March 2013, I visited Kachin State in northern Burma and 
documented attacks on Kachin Christians.
    I interviewed the wife of one Kachin political prisoner who 
had visited her husband just a month after his arrest in 2012 
and she told me this, and I quote,

          ``When I visited my husband he was covered in blood. 
        His nose was broken. An iron bar had been rubbed along 
        his legs.
          ``He was forced, and I emphasize forced, against his 
        will in prison to engage in homosexual sex with other 
        male prisoners. He was told that as he was a Christian 
        he should kneel on very sharp stones with his arms 
        outstretched like Christ on the cross and then other 
        prisoners were forced to dance the traditional Kachin 
        dance around him. He was beaten on his hands and arms 
        and they were hit in the head with guns.''

    Mr. Chairman, we urge the United States to encourage the 
Government of Burma to end policies of discrimination along 
religious lines and to issue an invitation to the United 
Nations Special Rapporteur on freedom of religion or belief to 
travel to Burma, to visit all parts of the country to 
investigate these violations.
    The persecution of Christians in the Middle East has drawn 
particular attention in recent months and very understandably 
so. But while the persecution of Christians in the Middle East 
is perhaps the most acute form of persecution, it is important 
to remember that the persecution of Christians is indeed a 
worldwide phenomenon today.
    In Southeast Asia, as I have tried to outline, Christians 
in Indonesia and Burma but also in countries like Vietnam, 
Laos, and Malaysia, which I have not had time to speak about, 
continue to face discrimination, restrictions and persecution 
which amount to serious violations which require international 
attention.
    Thank you very much.
    [The prepared statement of Mr. Rogers follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much for your testimony.
    Mr. Galindo.

    STATEMENT OF MR. JORGE LEE GALINDO, DIRECTOR, IMPULSO 18

    Mr. Galindo. Thank you very much for giving me the 
opportunity to speak today.
    Latin America is often overlooked in discussions of 
international religious freedom, yet serious violations of 
religious freedom regularly take place in the region, most 
notably in my own country, Mexico, but also in countries like 
Cuba and Colombia.
    In Mexico, the most severe violations of religious freedom 
take place in regions under the jurisdiction of traditional 
indigenous law referred to as ``uses and customs,'' which takes 
precedence over civil law.
    Religious intolerance is most prevalent in the southwest of 
Mexico. Individuals who wish to practice a religion that is not 
of the majority are persecuted by those who disagree with their 
choice to change their religion and beliefs.
    These authorities believe that their culture is being 
damaged and they do not accept that the freedom of the 
individual can take precedence over their traditions.
    Violence is frequently used against the victims and in some 
cases this has escalated to murder. Unfortunately, the 
government almost never chooses to prosecute those responsible 
for these criminal acts and a culture of impunity in regard to 
violations of religious freedom becomes further entrenched.
    There have been attempts in Mexico to address this problem 
through the law. However, the conflicts continue. One of the 
reasons from my point of view is that no government up until 
the present day has taken the matter as seriously as it merits.
    The situation is exemplified in the case of the forcibly 
displaced community of Los Llanos in late April 2009. A 
traditionalist mob attacked the Protestant Church in Tzotil 
village during a prayer service, beating the pastor.
    One month later, the same church was attacked again and 
completely destroyed. In September of the same year, local 
authorities sent a letter to the Governor of Chiapas State, 
explicitly declaring that they have given the Protestants a 
deadline to leave the village and if they did not do so they 
would use force to expel them.
    In January 2010, the local authorities informed the 
Protestants that they were no longer permitted to attend 
village assemblies and that they were prohibited from 
cultivating their crops.
    Finally, 13 homes belonging to the members of the 
Protestant Church were completely destroyed, leaving 31 people 
homeless, and finally forcibly displacing the community.
    The group filed a complaint with the National Human Rights 
Commission, CNDH, in late January 2010. Its conclusions and 
recommendations on November 30 of the same year found that the 
fundamental rights of the Protestants had been violated by the 
local and state authorities in Chiapas and recommended that 
they be allowed to return to their homes for protection by the 
government and that their right to their religious freedom be 
upheld.
    In April 2011, the CNDH visited San Cristobal de las Casas 
to follow up the progress of the implementation of their 
recommendations. No option has been taken by the state or 
Federal authorities.
    In June 2013, in the face of government inaction the group 
of 31 attempted to return to their homes accompanied by 
supporters and journalists. One mile outside of Los Llanos they 
were surrounded by traditionalists who proceeded to stone them.
    Two pastors were taken hostage and separated from the 
larger group by the traditionalists. The two were tied up, 
stripped of their clothing, beaten and had gasoline poured on 
them.
    They were forced to walk one mile with their hands and feet 
shackled to the village center of Los Llanos where the 
traditionalists threatened to burn them alive.
    The entire group was held up until state officials arrived 
and freed the group. They negotiated an agreement in which the 
local authorities agreed not to beat or mistreat the prisoners 
or to force them to pay a fee for their liberations and the 
Protestants agreed not to press charges.
    Of course, as in so many other cases, no charges were 
filed. No one was prosecuted and the community remains 
displaced.
    This case may seem extreme but it is unfortunately typical 
both in terms of the level of intolerance and violence and the 
state and Federal Government's failure to respond in any 
meaningful way to protect the rights of the victims and to 
uphold the rule of law.
    If I may, I will now address another serious and growing 
threat to religious freedom in Mexico today--the rise of narco-
criminal groups. Extortion aimed at houses of worship has 
become normal in the north of our country.
    Criminal groups see churches as attractive targets for 
money laundering. Pastors and priests who refuse to cooperate 
with criminal activities are threatened and kidnapped, in some 
cases in the middle of religious service.
    In December 2013, two priests in the State of Veracruz were 
murdered and in the State of Tamaulipas two priests were 
forcibly disappeared. A fourth was beaten to death and a fifth 
was attacked with a baseball bat and admitted to the hospital 
in critical condition.
    In addition, many of the criminal groups have adopted a 
kind of pseudo-religiosity, some other through the cult of 
Santa Meurte or St. Death. Others, like the Knights Templar in 
Michoacan, have cultivated their own kind of theology mandating 
that all places of worship in village they control must place a 
bust of their leader, El Chayo, inside the temples to be 
venerated and worshipped.
    There are severe penalties for refusing. One of those 
priests murdered in December is believed to have been targeted 
because he refused to bow to a narco's group demand to hold a 
Mass dedicated to St. Death.
    I'm aware of at least one Catholic parish in the State of 
Michoacan which has been effectively shut down because the 
Knights Templar have vowed to kill any priest the Catholic 
Church sends there.
    This concludes my presentation. I am grateful for the 
opportunity to address you all, to highlight the serious 
threats to religious freedom in my country and the larger 
region in Latin America, and I sincerely hope this will begin a 
discussion that will lead to protection of religious freedom 
for all in Mexico.
    Thank you.
    [The prepared statement of Mr. Galindo follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Mr. Galindo.
    Dr. Gondwe.

STATEMENT OF KHATAZA GONDWE, PH.D., TEAM LEADER FOR AFRICA AND 
        THE MIDDLE EAST, CHRISTIAN SOLIDARITY WORLDWIDE

    Ms. Gondwe. Thank you, Chairman Smith, and distinguished 
members for the opportunity to speak at this very important 
hearing.
    We believe in miracles so miraculously I will give a run 
down on Africa in 5 minutes.
    Broadly speaking, the majority of Christians in sub-Saharan 
Africa experience hostility, harassment, repression, 
restrictions or violence from two main sources--firstly, from 
militant Islamist ideology and resulting insurgencies that have 
taken advantage of preexisting local issues, weak application 
of the rule of law or power vacuums occasioned by the chronic 
failure of state structures.
    The Nigerian terrorist group Boko Haram and its offshoot, 
Ansaru, perhaps provide the clearest examples of this trend 
today. From its inception in 2002, Boko Haram made it clear 
that Christians and symbols of the Federal system were its 
primary targets.
    It was also made clear that the group's aim was to be 
accomplished by violence. During Boko Haram's abortive 
uprisings during 2003 and 2004, violence was directed at 
Christian and Federal targets in Yobe State.
    Following the destruction of Maiduguri headquarters and 
extrajudicial killing of its leader in 2009, the group went 
underground, reemerging to launch attacks that indicated a 
degree of specialist training. Purported spokesmen for the 
group have since stated that it is variously affiliated with 
other Islamist groups in Africa such as al-Shabaab and AQIM.
    As the increasingly religious dimension to Boko Haram's 
actions became clearer and the group itself articulated its 
aims of religious cleansing or, in the case of Ansaru, the 
creation of a caliphate, this became evident to all.
    However, realization of the extent of this campaign of 
cleansing is currently being to some extent obscured by the oft 
repeated phrase that more Muslims and Christians have died at 
Boko Haram's hands.
    This ignores a dramatic rise in religious cleansing, 
particularly in Borno State last year. During 2013, over 46 
villages were destroyed.
    Around 14,000 Christian villages were displaced in the 
Gwoza area of Borno State close to the Cameroonian border and 
an unknown number of Christians were murdered with women and 
girls kidnapped and forced into sexual slavery.
    Hostages taken by Boko Haram and Ansaru in Nigeria are 
often held in neighboring Cameroon. This cross border element 
underlines the transnational nature of Boko Haram/Ansaru and 
their ties with jihadi movements on the continent.
    One of the leaders of Ansaru is said to be a Cameroonian 
national. Nigerians potentially from Boko Haram or Ansaru were 
reportedly sighted in northern Mali where al-Qaeda affiliated 
Islamist groups sought to take advantage of a political vacuum 
and preexisting tensions between the political center and 
marginalized or under-developed periphery.
    Even more recently, according to a senior U.N. staff 
member, Boko Haram has already created some kind of presence in 
the Central African Republic where similar chronic and 
preexisting power vacuums have been exploited to transform what 
was essentially a struggle for resources and political power 
into an increasingly religious one, raising very real fears of 
the partitioning of the country along religious lines.
    Pre-existing issues facilitated the rise of religious 
extremism in northern Nigeria also. Temporarily obscured by the 
current terrorism is the long-term comprehensive and systematic 
marginalization of non-Muslim communities, which has been 
facilitated tacitly or deliberately by successive state 
governments and non-state actors over decades, and this has 
always been undergirded by violence.
    There are areas where religion is the determining factor in 
all sectors. Access to education, employment, opportunities, 
graveyards, land for houses of worship, social amenities, and 
even vaccination initiatives are predicated on belonging to the 
right or appropriate religion, and the religion-ruling 
community has become the de facto state religion.
    This underlying and systematic modulization which predates 
the ending of military rule will need to be addressed whenever 
the Boko Haram crisis comes to an end in order to ensure such 
groups no longer enjoy conditions in which they can flourish.
    These violations have occurred despite the fact that 
Nigeria's constitution contains provisions promoting freedom of 
religion and forbidding discrimination against any citizen.
    Events in Tanzania appear to be mirroring those in Nigeria. 
Societal discrimination based on religious affiliation is 
increasingly reported from the predominantly Muslim areas and 
in the semi-autonomous Zanzibar archipelago which is 98 percent 
Muslim.
    Uamsho or Awakening, a separatist religious movement 
founded in 2001, has benefited from local dissatisfaction with 
the terms of political union and is alleged to be behind an 
increase in violence targeting local Christians and 
particularly pastors, and an extreme interpretation of the 
religion of the majority community has taken precedence over 
civil law and constitutional provisions for religious freedom.
    On the Tanzanian mainland where Christians and followers of 
traditional beliefs are thought to constitute a majority, there 
are also reports of increasing discrimination, of a rise in 
religion-related violence and of a lack of justice in the 
aftermath of such violence.
    There is, as well, the looming threat of international 
terrorism here. The arrests in early October 2013 of 11 al-
Shabaab suspects allegedly undergoing military training in 
Tanzania's Mtwara region provided a fresh indication of the 
group's determination to advance its influence and aims by 
exploiting local grievances.
    According to a veteran journalist, and I quote him here, 
``Al-Shabaab and al-Qaeda are now using Zanzibar as a stepping 
stone. Their target is the whole country of Tanzania and the 
African continent at large. This is the biggest threat ever. 
Training on our land proves that they are here.''
    Turning to the second trend, Christians in sub-Saharan 
Africa experience hostility, harassment, repression and even 
violence due to authoritarian regimes where political 
considerations or the governing religious ideology mitigates 
against all pluralism.
    As a former Marxist Liberation Movement, the Eritrean 
regime has a long-held ideological antipathy toward religion of 
any sort, appearing to have deemed religious adherence as a 
competing and dangerous allegiance and a source of national 
division.
    2002 saw the harsh enactment of a law--a 1995 law, with the 
Ministry of Information issuing a decree obliging all religious 
groups to register or cease all activities.
    The decree also obliged all groups except the Orthodox 
Church, the Catholic Church and Lutheran Church and followers 
of Sunni Islam to officially register and function under the 
surveillance of the Ministry of Religious Affairs.
    None of those who have met these requirements have received 
registration to date. The 2002 decree marked the acceleration 
of open repression with the initiation of a campaign of arrests 
particularly targeting Evangelical or Charismatic Pentecostal 
Christians, and this has continued until today with varying 
degrees of intensity.
    The repression was accompanied by inflammatory statements 
from officials with religious believers equated with Islamist 
extremists and vilified as non-indigenous, unpatriotic agents 
of foreign interests who were seeking to undermine public 
morality and divide and destabilize the country.
    Between 2,000 and 3,000 Christians are thought to be 
detained indefinitely in Eritrea without charge or trial and 
pending a denial of faith. Torture is rife in these detention 
centers with prisoners being held in such inhumane conditions 
as metal shipping containers, underground cells, and in the 
open air in desert areas surrounded by barbed wire or thorns.
    Authorized denominations also suffer repression, most 
significantly in a series of government-initiated punitive 
measures from 2005 to 2006. The legitimate patriarch of the 
Orthodox Church who had resisted government interference in 
church affairs was forced from office and placed under house 
arrest where he remains to date.
    His supporters were jailed or conscripted, and we're 
talking about priests. Similar pressures regarding conscription 
were also exerted on the Roman Catholic Church. In Sudan, the 
religion of the majority as interpreted by the current regime 
is treated preferentially.
    Following the secession of South Sudan, religious freedom 
violations increased. The state made assessments of churches 
and then claimed and demolished places of worship after April 
2012.
    In addition, northern-based church leaders began to receive 
threats and at least two instances experienced direct attacks. 
Between December 2012 and April 2013, we noted an increase in 
harassments, arrests, and detentions of Christians.
    Foreign Christians were deported at short notice and their 
property confiscated by the state. I'd just like to conclude 
with two very broad recommendations.
    The first one is with regard to the Islamist uprisings and 
insurgencies. To echo what was said by the first speaker, early 
warning signs must be heeded and when intolerance manifests 
itself actions should be taken decisively.
    In the case of Nigeria, academic debate delayed action 
unnecessarily. In the case of the Central African Republic, 
slowness in sending adequate troops to enforce security is 
going to allow problems to fester and get even worse than they 
are.
    Once a decision has been taken to act, action must be 
decisive. And secondly, in the case of Eritrea, voices in the 
U.S. have been speaking of normalizing relations with this 
country.
    We're all for normalization. However, integrated into any 
discussions should be, as a primary benchmark, access to long-
term political and religious detainees for the Red Cross and 
for the families of these detainees and also for any other 
relevant body.
    Thank you.
    [The prepared statement of Ms. Gondwe follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Gondwe, thank you very much. You did pack a 
lot in, as did all of you. As Mr. Allen said, there is a global 
war on Christians and your testimonies and that of our previous 
witnesses have made that absolutely clear, and I do hope 
members of the press and especially policy makers in free 
countries realize that this is surging in a way that is 
unprecedented, I think, in human history.
    Your testimonies with great detail and accuracy have laid 
out what is happening and I'm so deeply appreciative. Would you 
like me to yield to you?
    Mr. Meadows. Thank you, Mr. Chairman, for your courtesy.
    I've got to run to another meeting but I wanted just to say 
thank you to each one of you for not only your testimony but 
the detailed nature of that testimony and assure you that what 
we will do--we have a staff member that is committed to this 
particular issue.
    As the chairman knows, it is--it's an honor to serve with 
him and fight for this particular cause and we'll be going 
through your written testimony in detail and perhaps we'll be 
following up with you with some questions and some plans of 
action.
    But I wanted to thank you for the sacrifice of time and 
certainly the well thought-out testimony, and I'll yield back, 
Mr. Chairman.
    Mr. Smith. Thank you so very much.
    I know, Mr. Allen, you do have to leave and I just want to 
ask you one question, although I have many. You make a very 
disturbing point about how ordinary people in the West are 
conditioned to see Christianity as an agent of repression and 
not a victim.
    As has been pointed out here and you've said it as well, 
you know, very often the real face of Christianity is an 
African woman with four children or, as I think you also said, 
a Dalit.
    You know, the false sense of somebody in a limo, that may 
be on some of the TV shows but it is not the everyday 
experience and that would include here as well.
    What do you think accounts for such negative conditioning 
and is any of that because the church as a teacher, as an 
exhorter, as an admonisher does play the role of spiritual 
teacher and guide, you know, and people rebel against that? Or 
is it just this false sense?
    You know, this may not fit as an analogy but I'll never 
forget my first trip the Soviet Union in 1982 on behalf of 
Soviet Jews and Pentecostals, the number of people, and we 
heard this throughout the 1980s especially, who thought that 
``Dallas'' was somehow America.
    It wasn't yet there. They weren't showing American movies 
or sitcoms or anything else yet, but that was creeping into the 
populace and they all thought we were--you know, the streets 
were paved with gold in the United States. Nothing, of course, 
could be further from the truth. What accounts for that?
    Mr. Allen. Well, Mr. Chairman, I think it's a complex 
situation but I will speak now as a media professional. One 
thing I have learned from more than 20 years in the media 
business narratives do not have to be accurate to be shockingly 
durable.
    I mean, once something is sort of cemented in the popular 
consciousness, and that can happen very quickly, it can take a 
much longer period of time to move it out and I think the 
practical reality is, first of all, perceptions tend to be 
framed by local reality.
    So, you know, Americans look around at what is visible 
about Christianity in their own back yard and there are often 
fairly expensive looking Catholic cathedrals or, you know, 
lavish Pentecostal mega-churches and they sort of draw the 
conclusion that ``Christianity Incorporated'' is a 
multinational with some pretty deep pockets.
    I think part of the reality too is that Christianity is 
associated with some controversial stands on the wars of 
culture in the West which shapes some elements of our culture 
to have a sort of negative predisposition.
    But however you explain it, these amount to explanations 
and not excuses. Again, I insist that the practical reality of 
the early 21st century is that two-thirds of the Christians on 
this planet live outside the West.
    More than 50 percent of them live in poverty. That share is 
going to be \3/4\ by mid-century. That's the reality of who 
Christians are on the ground today and many of them live in 
dramatically at-risk situations, as we have heard chronicled by 
this panel.
    So however you explain the inadequate narrative that we 
have there's no way of justifying it.
    It's time for that narrative to be punctured and be 
replaced with a more accurate impression of who Christians are 
and the risks they face and, again, on behalf of all of us I 
thank you for your efforts to do that.
    Mr. Smith. Thank you very much, Mr. Allen. Thank you. I 
know you do have to leave but we appreciate it.
    Let me ask some questions of our other distinguished 
panelists, if I could. Mr. Rogers, you pointed out that 
Christians in Aceh live in fear, people worship in secret. One 
church leader told CSW we do have a comprehensive partnership 
here in this country between the State Department and the 
leadership of Indonesia and I'm wondering if you have any sense 
that there is a robust component of human rights and religious 
freedom as a part of that.
    Parenthetically, I actually visited Banda Aceh after the 
tsunami and I can tell you had it not been for the sailors 
aboard the USS Abraham Lincoln and the helicopters that they 
dubbed the ``Gray Angels,'' many Muslims and Christians alike 
would have died because they were the tourniquet on what was a 
very, very serious situation of hunger and sickness as a result 
of the tsunami.
    All of that good will gleaned from that are the Indonesians 
listening to us or are they moving in the wrong direction, and 
what about that comprehensive partnership? Is it working?
    Mr. Rogers. Thank you very much.
    One of the things that I always try to emphasize talking 
about the situation in Indonesia is that Indonesia does have 
this great tradition of religious pluralism. Its constitution, 
its founding state ideology known as Pancasila is a pluralistic 
ideology.
    It gives protection for the six recognized religions in 
Indonesia and that's a tremendous credit to the world's largest 
Muslim majority nation. And so when I'm talking to people in 
Indonesia and in the Indonesian Government I try to frame the 
argument very much in terms of their own achievements and their 
own tradition being in peril, and similarly they've made this 
great transition from the Suharto era dictatorship to a 
thriving democracy that I think too is in peril by these 
violations of religious freedom and also violations of the rule 
of law.
    When I gave the example of the two churches where the 
Supreme Court had upheld their right to exist and the local 
mayor was defying the Supreme Court and nobody has taken action 
to ensure that the Supreme Court's rulings are implemented, the 
churches remained locked and the mayor is free to defy the 
court. So it then becomes rule of law issues.
    But if I may just add a third point, I think that there is 
a myth out there in the world about the current Indonesian 
Government led by President Susilo Bambang Yudhoyono.
    He is often seen as a force of moderation and the 
Government of Indonesia is seen as being largely sympathetic to 
our concerns but being weak and unable to take action. And my 
research in this report that we're about to publish shows that 
that is completely untrue.
    I have to conclude very sadly that President Yudhoyono is 
neither a force nor particularly moderate. When you look at his 
10-year presidency he has introduced the most sectarian and 
discriminatory legislation of any Indonesian President.
    He's introduced legislation that has had a direct impact on 
churches as well as on other communities. He's actually made, 
himself, very inflammatory remarks, particularly in a speech to 
the Council of Indonesian Ulema, where he basically gave them a 
green light to issue discriminatory fatwas--religious rulings, 
and some of his own ministers have made very inflammatory 
remarks.
    So I think we're actually dealing with a government that is 
more complicit with this than perhaps we like to admit or they 
like to admit, and my hope in this close relationship that the 
United States has with Indonesia, particularly looking ahead to 
Indonesia's Presidential elections this year when the current 
President will leave office, I hope the United States will 
really put pressure on the incoming President to tackle these 
issues.
    Mr. Smith. Let me ask you about Burma. You really had very 
specific information about the repression against Christians 
and, frankly, very often there is one major step forward in one 
area and all is seen as well, everything is fine there and we 
say let's move on and look elsewhere.
    And when Aung San Suu Kyi came here and spoke she was 
eloquent as she always has been and very brave and, of course, 
and she absolutely deserved the Nobel Peace Prize. But for a 
lot of Americans and policy makers it's like Burma is off the 
list of anything that we need to be looking at and yet you give 
some very compelling insights as to ongoing repression against 
Christians. Could you elaborate?
    Mr. Rogers. Absolutely. I think, of course, there have been 
some tremendous openings in Burma. I've experienced them 
myself.
    It's possible to do things in Burma that would have been 
inconceivable just a couple of years ago. I was in Burma most 
recently in October-November and I was able to give trainings 
and workshops in human rights and religious freedom that just 
would have been impossible a short time ago. So those positive 
steps are welcome.
    But you're absolutely right, there is this tendency to 
think that just because Aung San Suu Kyi is released and is now 
sitting in Parliament and because many political prisoners have 
been released that our job is done and Burma is a normal 
country.
    My conclusion on Burma is, if I may, just two brief points. 
Firstly, I think there has been a change of atmosphere but not 
yet a change of system. So there has been a relaxation in some 
respects and an increase in freedom in space for civil society, 
to some degree freedom of expression.
    But at the same time, an increase in religious intolerance 
directed both--most starkly, actually, against the Muslim 
community in Burma but also this long legacy that I described 
of violence against and persecution of Christians.
    And I wrote a piece recently in the Wall Street Journal 
where my concluding line was the beginning of the beginning may 
have just begun, and by that I mean yes, there are some 
positive changes but there's a very, very long way to go and we 
must not think that by any means that our job is done, as the 
evidence I've given today shows.
    Mr. Smith. Ms. Arora, you, again, spent a great deal of 
time delineating the problems in India and you also talked 
about the anti-conversion laws.
    Could you tell us what accounts for the Gujarat's extreme 
law, what the role of the BJP is, and what happens, what are 
the consequences potentially in terms of religious liberty, if 
the BJP wins the upcoming elections in May?
    Ms. Arora. Well, the Gujarat law, to start with, was 
enacted by a BJP government. Mr. Narendra Modi as chief 
minister enacted that law. It is perhaps the most severe----
    Mr. Smith. Could you come closer, please?
    Ms. Arora. It is perhaps the most severe law of all the 
anti-conversion laws and actually requires permission to be 
sought before any religious conversion.
    An enquiry will be conducted into every religious 
conversion and there are high penalties levied if that 
procedure is not followed.
    The law itself is very vague and allows for Christians and 
Muslims in fact to be targeted under this. There have been 
several instances of Christians and Muslims being prosecuted 
under the law.
    Thankfully, there have been no convictions as of date. The 
BJP has called for a national anti-conversion law so we see 
that as the most immediate something coming through if they 
were to come to power and we have also seen the impunity that 
is enjoyed by the Hindutva forces, as I outlined in my 
testimony, in Orissa.
    But we have seen that across the states in the state of 
Karnataka, in Madhya Pradesh, Chhattisgarh, I have spoken to 
police officials on several occasions who have informed me 
well, you know, the pastor is converting.
    I mean, even conversion has become an issue, let alone 
conversion by force, fraud or inducement and we see that rising 
as the BJP comes to power. Already there is a sense of euphoria 
among the ranks, almost agree that they will be coming to pass. 
So that is something that as minorities that is deeply feared.
    Mr. Smith. Is the United States doing enough to raise these 
issues, for example, our Ambassador to India, the State 
Department, in your view?
    Ms. Arora. I think more can be done. India is very 
receptive to agencies, organizations, governments speaking to 
us. I think more can be done.
    I think some has been done. Especially when you look at 
Orissa there has been some focus that was put on the state of 
Orissa. But across the country there just needs consistent 
dialogue with the Indian Government on these issues. So I would 
urge the Government of the U.S. to do that. Thank you.
    Mr. Smith. Dr. Gondwe, you've touched on country after 
country with great detail. One of the narratives here is that 
somehow al-Shabaab is on the wane, especially since they have 
not fared as well as they would have hoped in Somalia.
    But then they struck very hard in Nairobi and that was one 
wake-up call. Then you go on to talk about the target of al-
Shabaab and al-Qaeda using Zanzibar as a stepping stone. Their 
target is the whole country of Tanzania.
    And I think a lot of people forget that when Nairobi got 
hit in 1998 so did Dar es Salaam, and I actually chaired the 
hearings when Admiral Crowe who headed up the accountability 
review boards talked about how we didn't think they could hit 
there.
    That was not one of the targets that we thought extremist 
Muslims would focus on and a matter of fact I actually wrote 
the Embassy Security Act to further protect at least U.S. 
interests there with the more diplomatic security.
    But the point being I think we are naive to some extent 
thinking that somehow there's a decline or they're on the wane 
when we--when you come forward with evidence about just how 
they are multiplying and growing more lethal and dangerous 
every day. Could you elaborate on that?
    Ms. Gondwe. Yes. From the research I have done it shows 
that al-Shabaab has actually actively gone forward to recruit 
nationals from, you know, the different countries, particularly 
along the coast and also inland.
    Quite a few of the people who have been arrested in Kenya 
recently are actually Kenyan nationals, not necessarily Somali 
nationals of Somali ethnicity, and the same thing has also been 
happening in Tanzania and elsewhere.
    I think it's very easy to say they're on the wane because 
military actions in Somalia itself appear to be being quite 
effective and there have been a few strikes that have taken out 
leaders, et cetera, et cetera.
    However, what has not been factored into the equation is 
that they have been pretty effective in taking advantage of 
youth who feel that they have no stake in society and giving 
them a reason to live, so to speak, and also a religion. You 
know, with religion on top of it it gives them some kind of 
raison d'etre and it's those people that people should be 
worried about more than anything else.
    And I think, for example, in the UK we had the killing of 
Lee Rigby in broad daylight in London. That was a wake-up call 
that there are youths there too who feel they have no stake in 
society and are actually being actively targeted in different 
ways.
    In the UK we're hearing about targeting within the prison 
system and these are the people that we should be worried 
about. I don't know if that's a thing that the U.S. has been 
looking at but the targeting of disaffected unemployed youths 
in Africa is a very worrying thing.
    While we were in Tanzania we heard anecdotal evidence of 
people being trained and then sent back even to my country 
Malawi and other places where they are sort of sleeper cells 
almost and are being prepared to move when there's a time to 
move.
    I don't have hard evidence of that but considering what has 
been happening elsewhere I wouldn't doubt what we heard.
    Mr. Smith. If I could ask you as well, you point out that 
between--and testifying between 2,000 to 3,000 Christians are 
detained indefinitely at any given time in Eritrea.
    You point out that as with tens of thousands of other 
prisoners of conscience none have been formally charged or 
brought to trial and all are held pending a denial of faith.
    Torture is rife in Eritrea's detention centers with 
prisoners being held in such inhumane conditions as metal 
shipping containers, underground cells and in the open air 
desert surrounded by barbed wire or thorns, and you go on to 
further detail that horrific mistreatment.
    My question is in your view has the American Government, 
has the African Union, has the Human Rights Council weighed in 
effectively on behalf of these persecuted Christians and other 
prisoners of conscience in Eritrea?
    Ms. Gondwe. I would say the American Government has 
weighted in probably the most effectively and I commend the 
American Government for that.
    Mr. Smith. Could you come closer, please? Thank you.
    Ms. Gondwe. They have weighted in possibly the most 
effectively and I commend the American Government for that. The 
others have fallen in line slowly.
    But initially the concern about Eritrea was that it was a 
destabilizing influence in the Horn of Africa siding with al-
Shabaab and facilitating things for al-Shabaab so the initial 
U.N. sanctions against Eritrea focused on security issues, 
forgetting that the people of Eritrea are probably its biggest 
victims.
    The Human Rights Council has now weighted in far more 
effectively with the creation a Special Rapporteur on human 
rights in Eritrea. However, Eritrea refuses to engage with the 
Special Rapporteur so that's slightly problematic. But at least 
Eritrea is now being challenged at the international level for 
its treatment of its citizens.
    Mr. Smith. Mr. Galindo, you when into great detail about 
the group that filed the complaint with the National Human 
Rights Commission in 2010 and people living in Chiapas.
    The question is from what I gleaned from your statement 
here is that the local police, local governing authority were 
in solidarity with traditionalists and were part of the 
problem.
    Did the Federal Government send in Federal troops, Federal 
police to intervene and under the new Presidency of Mexico has 
there been any change, any focus on trying to ensure a robust 
religious freedom there?
    Mr. Galindo. Yes. Let me answer it this way.
    As I told in my speech, no government until the present day 
has taken the matter as seriously as----
    Mr. Smith. So the present day has taken it more seriously?
    Mr. Galindo. Yes. I think the old President, not in this 
administration before also they only said in their campaigns 
about this issue but in their practice we do not have any 
support of this important theme.
    Let me explain it to you in this way. In 1992, our 
constitution was modified--1992. It was the first time after 70 
years that the churches were going to be recognized. I mean, 70 
years no churches in Mexico. 1992 they said okay, we understand 
they are--we have to register them. The authority in that year 
thought that it was--one of every 100 churches registering all 
of them.
    Now almost we have 8,000. So if you can travel in 1992 our 
law now is limited. I mean, is not--is not enough. Now I think 
that the time is correct in this moment. Why? Because a few 
year--months ago the international treaties and our 
constitution are equal.
    So just to--I'm speaking of 1 year ago the human rights are 
considered very, very, very important in Mexico. So we are 
expecting that in this administration we can have good results.
    Mr. Smith. Mr. Galindo, if I could ask you, you've pointed 
out that there's another serious and growing threat to 
religious freedom in Mexico and you said over the last 6 years 
the government has attempted to confront narco-trafficking and 
criminal networks with the full force of the law.
    However, extortion aimed at houses of worship have become 
normal and you pointed out that in 2011 the Catholic bishops 
conference announced more than 1,000 priests have received 
threats.
    And then you went on to talk about in 2013 two priests in 
the State of Veracruz were murdered and you go on to talk about 
some of the others who have been mistreated or murdered.
    The question is--two questions. One, is it narco-
trafficking and human trafficking? Are they doing both? And 
what is the government doing to try to--I mean, we have gangs 
here in the U.S., as you know so well, and one of the most 
disturbing evolutions of those gangs is that they're not just 
doing drugs. They're also selling women. They have commodified 
women and it's becoming a very serious, obviously, horrible 
exploitation of young girls and women but it makes an enormous 
amount of money for these gangs. Is that something that's 
happening in Mexico as well?
    Mr. Galindo. Well, exactly I don't know and exactly the way 
but the thing is that we have a very, very big problem with 
narco-traffickers, yes. I mean, they are working I don't know 
how and they have a lot of strength to do the thing that they 
are doing.
    The thing is that the churches--that is my issue--they are 
afraid to continue working, I mean, because of the evil that 
they have. We have--the problem is in the north of our republic 
more than the center or the south--in the north of the republic 
near the States--I mean, Chihuahua and Sinaloa and all the 
north.
    So what we are trying to do is by the churches just to work 
as they used to and the--to pray, to be very intelligent how 
can they affront that problem. But maybe--I think maybe we have 
those things of treatment of persons.
    Mr. Smith. You have pointed out that with the Cuban 
Government--very often it's a matter of indifference or lack of 
enforcement of law in some governments--but in Cuba's case it's 
the government.
    Perhaps you might want to elaborate on that. We've had 
several human rights hearings in this subcommittee on Cuba and 
one of the only, besides some of the political prisoners and 
those who have set up so boldly the churches are one of the 
last remaining bulwarks against tyranny by Fidel Castro.
    Mr. Galindo. Yes. The thing is that they want to control 
everything.
    Mr. Smith. Right.
    Mr. Galindo. That's a problem. They want to control 
everything and religious also. So that's the big problem.
    Mr. Smith. Mr. Rogers, should the Congress and the 
President move forward with TPP toward Vietnam without 
conditionality on human rights?
    Mr. Rogers. Just to clarify exactly----
    Mr. Smith. The Trans----
    Mr. Rogers. TPP?
    Mr. Smith. Yes. Yes. The new trade agreement that----
    Mr. Rogers. Yes.
    Mr. Smith [continuing]. That the President is seeking fast 
track authority for.
    Mr. Rogers. I certainly don't believe it should be without 
conditions. I think the very serious human rights issues and 
particularly religious freedom affecting Christians and 
affecting other religious communities in Vietnam should 
absolutely be looked at by the United States and the Vietnamese 
Government should be pressed to address those concerns before 
the agreement is signed.
    Mr. Smith. I would just point out for the record that in 
April and June I chaired two hearings on Vietnam and human 
rights with the focus on religious freedom and my hope is that 
both parties here in the Congress will listen very carefully to 
what's happening on the ground in Vietnam.
    Before the bilateral agreement occurred, there was all of 
this hope and expectation that religious freedom and other 
human rights would break out of their bloc where they've--and 
there would be a change.
    Nothing even close to that happened. It went in the 
opposite direction and Vietnam now has deteriorated. Bloc 8406, 
you know, the folks that signed that wonderful human rights 
charter, systematically have been arrested and hunted down, and 
I made a trip to Vietnam some years ago right before the 
bilateral agreement and visited dissidents in Hue, Hanoi, and 
Ho Chi Minh City and most of those individuals have been 
arrested, rearrested.
    Father Ly was under house arrest when I met him. He is now 
back in prison. It would be unconscionable and I think it's 
unconscionable for the Obama administration not to be insisting 
on human rights conditionality with a country that has already 
shown that they want economic benefits sans linkage to human 
rights conditions. Is there anything else the distinguished--
yes?
    Mr. Galindo. Yes, sorry. I forgot to tell you something. In 
this administration with this President we are hopefully that 
this is going to be arranged, I mean. But we are thinking--we 
are seeing that they are afraid of our new groups--not 
Christian groups, new groups.
    They are afraid and they are putting some limits not in the 
law and they are trying to see how they can limit them to grow. 
I mean, that's also a problem.
    We are not talking only of Christians but we are talking 
about new groups that they are trying to associate and they're 
having a little bit of problems like Scientology or a lot of 
them that they are trying to get in in the law.
    But the government says I don't--I don't like them and I 
want to stay back a little bit. So that's also a problem of 
religious liberty for the new groups.
    Mr. Smith. Thank you.
    I want to thank you again for your extraordinary testimony, 
your leadership. I want you to know that your testimony as the 
hearing record will be very widely disseminated.
    We hope that the State Department takes note and reads 
carefully what you have conveyed to the subcommittee and I 
would like to enter into the record a statement by Dr. Brian J. 
Grim, president of the Religious Freedom and Business 
Foundation, entitled ``Persecution of Christians: Getting the 
Numbers Straight.''
    Hearing no objections, it is so entered. And again, I thank 
you so very much.
    The hearing is adjourned.
    [Whereupon, at 1:02 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

        <F-dash>\<because><F-dash><Register>s<ellipse><ellipse>
<Copyright><careof><star><careof><script-l><script-l><careof><Rx><box>\

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<F-dash>\<Copyright><star><brit-pound><script-l><script-l><careof><loz>a
                    tt <F-dash><func.-of><Register>\

Material submitted for the record by His Excellency, the Most Reverend 
Francis A. Chullikatt, Permanent Observer, The Holy See Mission at the 
                             United Nations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
  <F-dash>\<diamond>b<natural>a<acctof>s <F-dash><func.-of><Register>\

  Material submitted for the record by the Honorable Elliott Abrams, 
    Commissioner, U.S. Commission on International Religious Freedom

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

              <F-dash>\<Hoarfrost><acctof><careof>t<star> 
                     <F-dash><func.-of><Register>\

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
